 FEDERAL ELECTION COMMISSION


 OFFICE OF INSPECTOR GENERAL





         FINAL REPORT


   AUDIT OF THE COMMISSION’S

PROPERTY MANAGEMENT CONTROLS





             March 2010

     AUDIT ASSIGNMENT OIG-09-02

                  OFFICE OF INSPECTOR GENERAL
                                     TABLE OF CONTENTS


DESCRIPTION                                                                  PAGE

Executive Summary                                                             1      


Background                                                                    5      


Objectives, Scope and Methodology                                             12         


Employee Survey Results                                                       15         


Audit Findings and Recommendations 


   1. Personal Communication Device Policy and Procedures Need Improvement    17 


   2. Personal Communication Device Program Monitoring                        25 


   3. Tracking and Managing Personal Communication Devices                    35 


   4. Fleet Vehicles and Fleet Charge Card Program Controls                   42 


   5. Fleet Vehicle Driver Qualification and Verification                     47 


Conclusions                                                                   51         


Attachment 1: Summary of Audit Findings and Recommendations and 

              Management’s Response                                           52         


Attachment 2: 5 CFR§ 930 Subpart A - Motor Vehicle Operators                  66 





                                                                                     i
                           EXECUTIVE SUMMARY 

Internal controls of FEC programs continue to be the focus of the Federal Election
Commission (FEC) Office of Inspector General (OIG) audit activities. Programs for
managing assets at highest risk for abuse, such as personal communication devices (PCDs)
(Blackberry devices and cellular telephones), fleet vehicles, and fleet charge cards require
adequate control processes to ensure they are not subject to fraud, waste and abuse. In fact,
the FEC has documented instances of employee abuse of these programs and the agency has
sustained additional expenses because of those abuses.

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires the Government
Accountability Office (GAO) to issue standards for internal control in government. Agency
management is responsible for complying with the Standards for Internal Control in the
Federal Government issued by GAO (November 1999) by establishing and maintaining a
positive attitude and culture of internal control, assessing program risk, designing internal
control activities linked to program directives and policies, and documenting program
activity and management’s review of the activity. In general, we found that improved
internal controls are required for PCDs, fleet vehicles and fleet charge cards to ensure the
programs are not subject to fraud, waste and abuse. Additional controls are also required to
ensure the agency minimizes program costs, maximizes program objectives, and complies
with federal regulations governing those programs.

In the November 2009 Baseline magazine article, Minding Your Mobile Assets1, Samuel
Greengard describes a number of best practices to ensure organizations receive the most
value from their mobile technology (PCD) investments. Mr. Greengard acknowledges that
while “software applications can handle the mechanics of keeping track of devices, they do
nothing to help an organization develop a coherent strategy for purchasing, issuing, and
overseeing the technology and the way it will be used.” The article provides sound advice
that on first glance seems like basic common sense, but after further consideration, reads as a
checklist for the FEC personal communication device program assessment. Some of the
basic guidance includes:

    •	 “Consolidate if you can” but also “consider more than one cellular service provider
       to meet needs of users with different devices”;
    •	 “Make sure that employees don’t have phones they don’t need and features they don’t
       use. For example, not every worker requires an unlimited dialing plan or multimedia
       messaging service (MMS)”;
    •	 Management needs to “understand organizational roles and usage patterns so that
       the organization does not overspend on devices, calling plans and data plans”; and
    •	 “Too often organizations set up systems and then neglect to re-examine them or make
       needed changes.”

1
 Greengard, Samuel. “The Fusion of Business and Technology: Minding Your Mobile Assets.” Baseline
November 2009: 23+.

                                                                                                    1
Mr. Greengard’s advice can be applied to both public and private sector organizations. The
key to applying the guidance effectively lays in adopting a philosophy of program
management with one individual responsible for managing and monitoring program
performance. The OIG’s PCD audit testing results described below and in the body of this
report indicate that the Information Technology Division (ITD) only takes responsibility for
asset purchases, distribution, and destruction, but does not research and evaluate alternate
service providers, assess employee needs, or evaluate agency PCD device usage levels. As a
result, this reduces the potential benefits to the agency and increases program costs. The
strongest internal control for this program would be to assign responsibility and
accountability for overall program management to one individual in a single business area. It
is understood that other business areas such as the Contracting Office, as well as managers
requesting devices for their employees, and all employees issued devices, play a role in
effectively managing the program to minimize costs and maximize value.

The OIG documented five (5) findings and made 36 recommendations to address internal
control weaknesses for FEC PCDs, fleet vehicles, and fleet charge cards. A table listing the
findings and recommendations is included as Attachment 1 on page 52 of this report. The
following sections describe audit scope and testing results for the two programs.

Audit Scope

The FEC OIG conducted an audit of the controls over FEC property, to include personal
communication devices (PCDs) (Blackberry devices and cellular telephones), FEC vehicles
and fleet charge cards. Selection of this audit was based upon an OIG developed strategic
audit plan for the agency and previously reported abuse of FEC property. The audit was
performed in accordance with generally accepted government auditing standards.

The scope of this audit included a review of Commission internal controls over FEC property
from fiscal year (FY) 2007 to 2010. The specific audit activities included documenting and
reviewing the adequacy of:

   •	 policies and procedures for managing the assets;
   •	 business processes used to manage the assets; and
   •	 management control activities used to detect and correct potential fraud, waste and
      abuse of the assets.

Personal Communication Device Testing Results

Due to the limited availability of electronic PCD data, detailed audit testing was conducted
for the period May 2008 to August 2009. Detailed testing of FEC employees’ Blackberry
use was conducted on a sample of 56 employees to determine whether the employees
complied with FEC policies and procedures. The testing results showed that some
employees use agency issued Blackberry devices for personal use. In addition, an OIG
survey of 116 FEC employees issued PCDs as of December 2009 was conducted to:


                                                                                               2
   •	 verify which device models were issued to FEC employees;
   •	 gain an understanding of FEC employee use of PCDs; and
   •	 determine whether FEC employees were adequately informed about the service 

      plan/costs associated with their PCD. 


The survey response rate was 97 percent and employees provided candid comments and
suggestions to maximize benefits and minimize the costs of agency issued PCDs. A
summary of the employee survey results is included on page 15 of this report.

Audit fieldwork was conducted between September 1, 2009 and January 22, 2010. The audit
results revealed that for PCDs, the agency has two different policies with conflicting
standards on employee personal use of the devices. Further, the policies are not followed nor
enforced, and neither incorporates Internal Revenue Service regulations governing personal
use of devices by employees and the potential fringe benefit tax implications. Also, program
management roles and responsibilities are not clearly defined in the policies. In addition,
program management does not periodically review the service plans offered by their current
provider or conduct market research of other potential vendors to decrease program costs.

Audit testing of the internal controls of PCDs also highlighted that a better assessment of
employee business needs, and more active program management and monitoring could lead
to significant financial savings for the agency. For the audit testing period May 2008 through
August 2009, the following potential cost savings were identified:

   •	 Researching other Blackberry service providers and selecting a similar service plan from
      a competitor could have saved up to $52,698 in FY 2010 compared to projected service
      costs of the FEC’s current provider, AT&T. Converting to another provider would also
      allow the agency to receive mobile devices at no cost to the agency;
   •	 Converting Blackberry users with little or no voice use to data only plans could have
      saved $32,359, or 22 percent of the total program service costs, for the 16 month period
      reviewed;
   •	 Terminating service plans in a more timely manner for employees who leave the agency
      could have saved $8,614;
   •	 Providing International add-on plans only to employees who travel internationally and
      limiting the add-on service to only the periods of travel could have saved $6,329; and
   •	 Eliminating spare devices with active service plans could have saved $643. The FEC
      currently has two spare devices that cost the agency $158 per month.

Testing also showed that the Information Technology Division (ITD) is not in compliance
with Commission Bulletin 2006-04 for tracking PCDs. ITD does not maintain inventory
records of the PCDs in the FEC’s Fixed Asset System (FAS) and FEC property bar codes are
not assigned to mobile devices, as required. Instead, ITD maintains asset listings in an Excel
spreadsheet and the OIG’s comparison of the various asset listings provided by ITD during
the audit showed the listings were incomplete and required updates to reflect FEC’s current

                                                                                               3
PCD inventory. Based on the asset listings, it appears some devices are missing or not
accurately reflected in the asset schedules. For more information on PCDs, refer to the
background section of this report, page 5, and the detailed findings and recommendations
beginning on page 17.

Fleet Vehicles and Fleet Charge Cards Testing Results

Audit testing also showed there are insufficient management controls in place to detect or
prevent employee fraud, waste and abuse of agency fleet vehicles and fleet charge cards,
despite known prior abuse by one or more FEC employees. Further, the FEC lacks sufficient
controls to detect and correct mileage reporting errors by agency staff or billing errors by the
General Services Administration (GSA) Fleet Services. The FEC lacks policies and
procedures to ensure proper internal controls and compliance with federal regulations for
operating government leased vehicles and the use of fleet charge cards. The FEC also does
not have business processes or written guidance in place to ensure that FEC’s drivers of FEC
vehicles are both qualified and authorized to operate those vehicles in accordance with
federal regulations. As a result, the FEC is not compliant with federal regulations and is
exposed to an increased risk of litigation if an employee deemed unqualified operates an FEC
vehicle and is involved in an accident. For more information on fleet vehicles and charge
cards, refer to the background section of this report, page 5, and the detailed findings and
recommendations beginning on page 42.




                                                                                              4
                                         BACKGROUND 


Personal Communication Devices
Annual Service Costs

Beginning in fiscal year (FY) 2003, the agency began transitioning from standard cellular
telephones and pagers to Blackberry communication devices which allowed employees to
make and receive telephone calls as well as access their FEC e-mail. Since then, annual
program service costs have increased from $29,017 in FY 2003 to $116,654 in FY 2009, an
increase of more than 300 percent. The annual cost increases are attributed to the higher cost
of service plans for Blackberry devices compared with standard cellular phones or pagers, as
well as an increase in the number of employees issued Blackberry devices. For example, in
FY 2006, FEC’s monthly invoices showed service charges for an average of 82 devices,
compared to an average of 124 devices in FY 2009. The typical monthly cost for a
Blackberry with voice and data was $43.252 in FY 2006, compared to $77.49 in FY 2009.
The table below illustrates the actual annual service costs for each fiscal year.


                                        Annual Service Costs
            $120,000
            $100,000
             $80,000
                                                                           Annual Service
             $60,000                                                       Costs
             $40,000
             $20,000
                  $-
                        2003    2004    2005   2006   2007   2008   2009




For FY 2010, the FEC has obligated $152,000 to cover the monthly service fees and asset
purchases of PCDs. The monthly cost of service plans for FY 2010 is $90 and some devices
have service plans with special features that increase service costs to more than $102 per
month.




2
    Values are net of government discounts.

                                                                                             5
Annual Asset Costs

In FY 2004, the FEC purchased and distributed Blackberry models 6280, 7280 and 7290. In
FY 2005, the agency continued to transition employees with pagers to Blackberry devices.
In February 2006, the agency purchased five (5) Palm Treos and associated monthly service
plans for use by ITD staff. The Palm Treos were purchased in case Research in Motion
(RIM), the maker of Blackberry mobile devices, lost a lawsuit on patent infringement and
was forced to suspend service. The lawsuit, which was initiated in 2004, reached a tentative
settlement agreement in March 2005 and final settlement on March 3, 2006. After the
lawsuit was settled, another ten (10) Palm Treo devices were purchased for ITD staff
member use and one of the ten devices was reserved as a spare. The Palm Treos were used
by ITD staff members from February 2006 to February 2007. Total asset and service costs
for the Palm Treo plan was $13,795.

In FY 2007, the FEC began upgrading older devices with Blackberry 8100 and 8700c device
models. Many of the 8700c models were received free of charge from AT&T under service
plan upgrade options. In FY 2008, the agency continued to purchase devices for new users
as well as mobile broadband air cards for laptop computers. The air cards allow select
employees to connect their laptops to the internet when traveling within the AT&T network.
In FY 2009, the agency received 28 Blackberry devices free of charge under service plan
upgrades and purchased two (2) additional air cards. The effort to research and obtain
devices free, under upgrade offers, saved the agency thousands of dollars in FY 2009. The
table below shows the total annual spending for Blackberry and Palm devices, as well as air
cards for fiscal years 2003 through 2009.


                               Annual Asset Purchases
             $14,000

             $12,000

             $10,000                                                    Assets
                                                                        Purchases
              $8,000

              $6,000

              $4,000

              $2,000

                  $-
                       2003   2004   2005   2006   2007   2008   2009



According to ITD’s Blackberry asset listings, eleven (11) devices have been lost, four (4)
were stolen, and forty-nine (49) have been destroyed. The FEC currently holds seventeen
(17) devices as spares available to be issued to new users or as replacements for devices that
break. There are fifty-two (52) devices held in storage, most of which ITD considers broken
or obsolete, but many are still serviceable.


                                                                                             6
Program Management

Two policies govern personal communication device management at the FEC. Commission
Bulletin 2001-11A, Policies and Procedures for Issuance of Cell Phones and Pagers, updated
March 20, 2002, details the policies and procedures for employee use of cellular telephones
and pagers and FEC Policy 58-4.4, Personal Communication Devices Security Policy,
updated July 11, 2008, which applies to all personal communication devices “to include
personal digital assistants (PDA), cellular telephones, laptop wireless cards and pagers.”
During the audit the OIG discussed the policy disparity with management and according to
ITD staff members, Commission Bulletin 2001-11A has been superseded by FEC Policy 58-
4.4. Policy 58-4.4 restricts the issuance of PCDs “to personnel who need to conduct
immediate, critical FEC business” taking into account that “distribution of the various
technological devices must be limited to persons for whom the productivity gained is
appropriate in relation to the costs incurred.” Section 2(b) of the policy identifies the
following offices and personnel groups as the “core group”3 users who may obtain personal
communication devices or authorize their staff to receive devices:

        •    Commissioners,
        •    Commission Office staff,
        •    Staff Director,
        •    Deputy Staff Directors,
        •    Office of Inspector General,
        •    Office of the Chief Financial Officer,
        •    General Counsel, and
        •    Associate General Counsels.

According to ITD’s policy,

        “All requests to obtain a FEC PCD from staff other than those specified in section
        2(a) must be submitted in writing to the appropriate Deputy Staff Director, or
        Associate General Counsel for approval. Employees of the Offices of Inspector
        General and Chief Financial Officer should submit their request to their appropriate
        manager. Any request must contain justification demonstrating how a FEC PCD is
        essential to performance of the requestor’s duties. Approved requests are to be
        submitted to the Chief Information Officer (CIO) for processing.”

The actual business process observed during the audit involves a written PCD request sent to
the Deputy Chief Information Officer for Operations by anyone identified as a core group
user or an FEC supervisor. The requests that are sent to the Deputy Chief Information
Officer do not always contain a business justification. Based on the request; the
Management Assistant for the Configuration Management team updates the asset listing to
reflect the employee’s name, as well as the model number and serial number of device
3
 Program management has also used the term “base group” users when referring to this listing and makes a
subtle distinction between base and core groups. Refer to Finding 1 on page 20 of this report.

                                                                                                           7
assigned. The Management Assistant also updates the AT&T Premier on-line customer
account records by inputting the employee’s name against the assigned telephone number.
This process helps to ensure that the monthly review of AT&T invoices allows the
Management Assistant to trace device usage and any overage charges to a specific employee.
The device is then distributed to the employee by the Management Assistant.

According to ITD, broken and obsolete PCD devices are destroyed locally by removing the
subscriber identification module (SIM) card, breaking the asset with a hammer, and placing
the broken pieces in a trash receptacle.

Cingular/AT&T Service Plans

The agency initially used Cingular as the mobile telephone service provider for standard
cellular telephones and pagers. The FEC continued contracted services with Cingular when
the agency transitioned to Blackberry devices in FY 2003. Other providers such as T-Mobile
also offered Blackberry devices and service plans in 2003. AT&T and Cingular merged in
October 2004; the agency continues to procure mobile telephone and data services from
AT&T.

When the FEC transitioned from the standard cellular telephones and pagers to Blackberry
devices, progam management selected the Nation 450 plan. Under the plan, employees
received 450 “anytime” minutes per month to be used between 6:00 am and 9:00 pm daily,
unlimited nights and weekends, unlimited domestic messsaging and internet, and unlimited
mobile to mobile minutes. In addition, the FEC purchased air cards with unlimited air card
connectivity. If an employee used more than 450 minutes in a month (exlususive of nights
and weekends use), the overage was charged at a maximum rate of $0.25 per minute. For
each device, unused minutes were “rolled-over” to the next month and accrued for future use.
Additional fees were charged for directory assistance ($1.79), roaming for areas with no
Cingular/AT&T coverage, and texting ($0.20 per text). In April 2009, AT&T provided
unlimited texting under the Nation 450 plan at no additional cost.

In November 2009, the agency transitioned to new AT&T service plans, the GOV Nation
Pooled plan 100 and 200. The GOV Nation Pooled plans reduced the number of minutes per
device to either 100 or 200 minutes, but allowed the minutes for all devices to be pooled and
shared among all users, totaling 12,900 shared minutes per month. The pooled minutes do
not roll over at the end of each month for future use by employees. The GOV Nation Pooled
plan provided either 100 or 200 anytime minutes per month, 5,000 minutes per user for
nights and weekends, unlimited mobile to mobile, and unlimited data. Calls that exceed the
pooled minutes for the agency in a month are charged at $0.25 per minute. The pooled plan
did not include unlimited texting. The texting feature increases monthly charges by $20.00
per user for unlimited texting. Immediately after changing to the pooled 100 and 200 plans,
the FEC experienced unexpected service charges of $20 per user, per month, for texting. As
a result, the agreement with AT&T was renegotiated and the agency converted all 100
minute plans to the 200 minute plans in January 2010. This change now provides 23,800
total pooled minutes per month while also providing unlimited texting. For the current GOV
Nation Pooled plans and prior Nation 450 plan, the FEC has the ability to add or remove
features and services.
                                                                                             8
Fleet Vehicles and Fuel Charge Cards
In 2006, FEC maintained four government leased vehicles. During that time period, FEC
Administrative Services Division (Admin) management was alerted to possible employee
abuse of agency leased fleet vehicles. After conducting a review, program management
determined an employee used agency vehicles for personal use. The employee subsequently
resigned from the FEC. Two of the four leased vehicles were returned to General Services
Administration (GSA) in October and November 2006, after management determined the
vehicles were no longer needed. In addition, abuse of fleet charge cards was suspected but
not proven because the abuse could not be directly associated with one or more individuals.
The FEC currently leases two vehicles from GSA for official government use; a sedan
primarily made available to the Office of General Counsel (OGC) investigators, and a van for
Administrative Services use. The van is routinely used to make:

   •	 daily trips to various locations on Capitol Hill, such as the Senate and House of
      Representatives office buildings, Government Printing Office, Government
      Accountability Office, etc.;
   •	 twice monthly trips to the FEC’s contractor that supplies agency employee and
      contractor HSPD-12 security badges;
   •	 ad hoc trips to other federal locations such as the National Archives and Records
      Administration facilities in College Park and Suitland, Maryland;
   •	 trips to perform fleet vehicle maintenance and fueling; and
   •	 ad hoc trips to transport agency staff to local meetings and conferences.
The sedan is available to the OGC investigators to conduct investigations or transport
witnesses. When not used by the investigators, the sedan is made available to Admin
Services staff to perform official FEC transportation duties. The table on the following page
shows program costs and miles driven for FEC leased vehicles in the last five fiscal years.




                                                                                            9
                                                Fleet Vehicle Program Data
                                           Annual Program Expense       Miles Driven
                    $13,187              $15,141 
                               12,732          12,532 




                                                                                       $6,475 
                                                         $5,337         $5,187 
                                                               2,888                         3,220 
                                                                              2,443 



                         2005                2006           2007           2008           2009



        The agency returned one of four vehicles in September 2006. Another vehicle was returned November 2006.

In FY 2005, the FEC was billed $1,562.26 by GSA for a transmission replacement on a
vehicle. The cost of the transmission replacement was billed to the agency because the
vehicle did not have transmission fluid levels adequately maintained. The FEC was also
billed $3,439.75 in FY 2006 for vehicle repairs resulting from an automobile accident. The
agency was billed for repair costs because the FEC employee was determined to be at fault4.
The repair costs are included in the annual program expenses reported in the table above.
Returning the two vehicles in 2006 decreased total miles driven per year by approximately 75
percent and reduced the annual program costs more than six thousand dollars per year, after
reducing the two prior year’s annual costs for the additional accident and maintenance
charges.

GSA provides a fleet charge card for each vehicle leased. The charge card is used for:

    •    fuel and routine maintenance, such as car washes and oil changes;
    •    minor repairs and maintenance, such as wiper blades, flat tires, and alignments; and
    •    major maintenance, such as brake replacement, engine, or transmission repair.

Any maintenance or repairs over $100 require prior approval by GSA. Failure to receive
approval may result in the agency being charged for the maintenance. Charges made on the
fleet charge cards by FEC staff are paid directly by GSA. In turn, GSA recovers the costs of
fleet vehicle fuel and maintenance through monthly lease charges to the agency. Fleet costs
are based on a monthly fixed lease rate, plus fixed mileage rate times the miles driven per
month. The monthly lease rate and mileage rates change annually. For FY 2010, the
mileage rate decreased to 17 and 18.5 cents per mile and the monthly lease rates decreased
from $233 to $224 (sedan) and $215 to $207 (van) per month. GSA also charges a fuel
surcharge aimed at recovering the additional costs of fleet vehicles equipped for flexible


4
  The federal government is self-insured with respect to automobile accident coverage. If a federal employee
driving a government owned vehicle is involved in an accident and determined at fault, the cost of repairs is
recovered from the agency.

                                                                                                                  10
fuels5, and to adjust fleet costs during periods of fluctuating fuel prices. In periods of
declining fuel prices, GSA does not impose a surcharge and may even provide fuel surcharge
credits. The current fuel surcharge is a flat rate of $14 per month, per vehicle. FEC Admin
Services staff provides GSA information on the miles driven each month for each vehicle,
using the Dial-a-Mile telephone reporting system. Odometer readings for each vehicle are
due by the 21st of each month so that invoices can be generated by GSA for payment.
Because actual mileage data is required to generate the invoice, GSA bills agencies in
arrears. For instance, the miles driven between September 22 and October 21 are included in
the November monthly invoice.

The FEC pays for fleet vehicle leases using the Intra-Governmental Payment and Collection
System (IPAC). The IPAC system allows automatic electronic funds transfer between
federal agencies. Payment is initiated by GSA Fleet Services by submitting an electronic
invoice for payment to GSA Financial Services group, the FEC’s outsourced financial
service provider. The invoice is submitted before mid-month and payment is made by
journal entries and funds transferred between the FEC Treasury account and GSA Treasury
account. The FEC Finance Office receives a paper invoice after the 21st of each month and
provides the invoice to Admin Services for review and payment authorization, even though
payment has already occurred. Any discrepancies in odometer reading or invoiced amounts
must be corrected in a subsequent month, because payment is made to GSA prior to the FEC
receiving the invoice.




5
    Flexible fuel vehicles (FFVs) are designed to run on gasoline or a blend of up to 85% ethanol (E85).

                                                                                                           11
       OBJECTIVES, SCOPE AND METHODOLOGY 

The objectives of the audit of the Commission’s property management controls were to
determine if the Federal Election Commission (FEC) has sufficient property management
controls over the FEC’s: 1) personal communication devices (PCDs); 2) government leased
vehicles; and 3) fleet charge cards. The scope of the audit included a review of the
Commission’s internal controls over FEC property from fiscal year (FY) 2007 to 2010. The
audit was performed in accordance with generally accepted government auditing standards.

To accomplish the audit objectives, the OIG performed the following procedures:

   •	 Reviewed Commission Bulletins 2001-11A and 2004-06, and the Information
      Technology Division’s (ITD) Policy Number 58.4-4 regarding the policies and
      procedures for PCDs. Refer finding #1 on page 17, section Personal Communication
      Device Policies and Procedures Need Improvement.

   •	 Conducted interviews and held meetings with ITD program staff regarding PCDs in
      order to verify policies and procedures are consistently followed; document any
      program violations; ensure compliance with federal laws and regulations; gain an
      understanding of internal control procedures; and identify any internal control
      weaknesses. Refer findings #1, #2, and #3 relating to PCDs on pages 17, 25 and 35
      respectively.

   •	 Conducted telephone interviews with FEC’s AT&T service representative to gain an
      understanding of service plan details of FEC’s prior Nation 450 plan and current
      Government Pooled service plans.

   •	 Retrieved electronic billing information from the AT&T on-line Premier website to
      review detailed voice and data activity for FEC PCD users. However, due to the
      limited availability of electronic information, the OIG could only download the most
      recent 16 months of voice and data activity, May 2008 to August 2009.

   •	 Reviewed copies of FEC’s monthly AT&T summary invoices for the scope of the
      audit. Selected the summary invoices from May 2008 to August 2009 based on the
      available electronic data from AT&T and developed an Excel spreadsheet of all
      summary data to conduct detail testing.

   •	 Reviewed the detailed activity of 56 FEC PCD users to determine if the level of
      personal use of PCDs was in compliance with FEC’s policies and procedures. Refer
      finding #1 on page 23, section Personal Use & Internal Revenue Service Regulations.

   •	 Inquired with ITD staff if FEC adheres to Internal Revenue Service tax code
      regarding substantiation of personal use for cell phones provided by the agency to the

                                                                                          12
   employees for official use. Refer finding #1 on page 23, section Personal Use &
   Internal Revenue Service Regulations.

•	 Reviewed PCD requests sent to ITD from various FEC staff to determine if the PCD
   requests adhered to the policies and procedures in ITD’s PCD Policy 58.4-4 regarding
   the process for requesting, authorizing, and approving PCDs requests. Refer finding
   #1 on page 17, Personal Communication Device Policies and Procedures Need
   Improvement.

•	 Reviewed FEC invoices to ensure that the correct FEC employee was assigned to the
   active PCD telephone line indicated on agency records. Refer finding #2 on page 29,
   section Inadequate Records.

•	 To determine if FEC is effectively and efficiently managing PCDs to reduce and/or
   control program cost, the OIG reviewed PCD telephone accounts for:

       	 the period in which termination of service occurred for employees who left the
          agency;
       	 devices that were transferred from one FEC employee to another;
       	 no voice and/or data activity on PCDs that are active and issued to FEC
          employees; and
       	 active spares that are maintained by ITD.
   Refer finding #2 on page 25, section Excessive Service Plan Costs.

•	 Reviewed PCD telephone line accounts that were charged extra fees for services
   outside of the standard voice and data plan. Refer finding #2 on page 30, section
   Knowledge of Service Plan.

•	 Compared the monthly and yearly cost of the AT&T Nation 450 plan with the new
   Government Pooled 100 & 200 plan to identify the anticipated savings to the agency.

•	 Compared FEC’s AT&T Government Pooled Plan 100 & 200 service plan to similar
   service plans with Verizon and T-Mobile to identify potential cost savings. Refer
   finding #2 on page 32, section Managing Service Plan Features and Costs.

•	 Reviewed ITD’s official asset listing of active PCDs issued to FEC employees and
   conducted a stock take of FEC’s spare, broken, and old PCD’s and compared the
   results to their appropriate ITD asset listing to account for all assets purchased or
   ordered. Refer finding #3 on page 35, section Asset Tracking.

•	 Conducted an employee survey of PCDs to verify which mobile devices are issued to
   FEC employees; gain an understanding of FEC employee use of mobile devices; and


                                                                                           13
   determine whether FEC employees are adequately informed about the service plan
   associated with their FEC mobile device. Refer Employee Survey Results on page 15.

•	 Interviewed ITD’s Management Assistant to gain an understanding of the complete
   process of how a PCD is ordered, recorded, stored, provided to the employee,
   returned by the employee, and the disposal process of PCDs. Refer finding #3 on page
   40, section Segregation of Duties.

•	 Conducted interviews and held meetings with the Administrative Services Division
   (ASD) staff for fleet vehicles and fleet charge cards in order to identify any
   documented policies and procedures regarding fleet vehicles and fleet charge cards;
   ensure compliance with federal laws and regulations; gain an understanding of
   internal control procedures; and identify any internal control weaknesses. Refer
   finding #4 on page 42, Fleet Vehicles and Fleet Charge Card Program Controls.

•	 Reviewed the following requested documents submitted by the Administrative
   Services Division:
       Transportation requests;
       Transportation logs;
       Vehicle repair and maintenance documentation; and

       Original fleet charge card receipts.

   Refer finding #4 on page 42, Fleet Vehicles and Fleet Charge Card Program

   Controls.


•	 Conducted telephone interviews with General Services Administration (GSA)
   account representatives to gain an understanding of the process for leasing a
   government vehicle; how to use the fleet charge cards; FEC’s access to vehicle data
   and how that data can be retrieved; and how FEC is billed for vehicle use and
   fuel/charge card transactions.

•	 Reviewed the GSA detailed electronic data transactions for FEC’s fleet charge cards.

   Estimated the miles driven for FEC’s fleet vehicles based on the routine driving
   patterns to identify the expected miles per month. Calculated the actual miles per
   gallon using GSA’s fleet charge card transaction. Compared all data to identify any
   unusual activity for each FEC leased vehicle from November 2006 to December
   2009. Refer finding #4 on page 42, Fleet Vehicles and Fleet Charge Card Program
   Controls.

•	 Reviewed the list of authorized drivers for FEC’s government leased vehicles and
   reviewed position descriptions for all authorized drivers. Refer finding #5 on page
   47, Fleet Vehicle Driver Qualification and Verification.



                                                                                         14
                     EMPLOYEE SURVEY RESULTS 

During the audit the OIG conducted an employee survey regarding Personnel
Communication Devices (PCDs). The survey was provided to users who were issued a PCD
based on agency records as of December 2009. The OIG also received an additional survey
response from a PCD user who was not listed on agency records because their device was
issued after December 2009. The purpose of the survey was to:

   •	 Identify all the devices currently issued to FEC employees;
   •	 gain an understanding of FEC employee use of mobile devices; and
   •	 determine whether FEC employees are adequately informed about the service plan
      associated with their FEC mobile device.

The survey asked users to identify their name, mobile telephone number, device model (i.e.
Blackberry 8700c, 8320 Curve, etc.), and all the features that they regularly use with their
device (i.e. e-mail, voice, text messaging, etc.). The OIG added pictures of each mobile
device next to their associated device model number and included instructions on how to
locate the device model number on their mobile device. The users were also asked to
identify if: a) they used their PCD; b) they believed the PCD is necessary to efficiently and
effectively perform their FEC duties; and c) they were knowledgeable of the service plan
details regarding their PCD. The survey also allowed users to provide additional comments
on the survey form. The OIG received a 97 percent response rate from the PCD users.

See the table below for the results of questions a, b, and c stated above.


                                               Survey Results
                                                                                                 PCD Users
   a) Employee does not use their FEC issued PCD                                                     7

   b) Employee feels device is not necessary to efficiently and effectively perform FEC duties      10

   c) Employee is unaware of the service plan details                                               83



When reviewing the responses to the survey questions, the OIG was able to gather additional
information from the PCD users’ responses. For instance, when asked to identify their mobile
telephone numbers, 10 PCD users could not provide their mobile number and some users
provided responses such as:

    •	 “I really don’t know. I have never given that number to anyone. . . My supervisor
       contacts me on my personal cellphone when he needs to, which is what I prefer
       anyway.”

                                                                                                         15
    •	 “I was told not to use the phone part of the device and I was never given the phone
       number.”
    •	 “Rarely uses FEC device. Gives personal device number for office use, that is why
       does not know the FEC phone number assigned.”

Also, when the PCD users identified their device model the OIG compared the PCD user
responses to agency records and 20 PCD users’ device models were inaccurate. The OIG
identified one active telephone account that was still assigned to a former employee who left
the agency in October 2009. Another active telephone line was assigned to an employee who
did not have an FEC issued PCD. However, the OIG conducted further analysis and noted
the device was issued to another FEC employee.

Additional Survey Information

Through the additional comments provided by the PCD users on the survey, the OIG became
aware of several user issues regarding PCDs. Three users indicated they would have liked to
have been provided training on how to use their Blackberry device when the devices were
issued. Users also wanted written details of the service plan such as limitations, features that
incur additional costs, and any use prohibitions. ITD has purchased Quick Source for RIM
Blackberry guides for Blackberry models 8700c and 8320 Curve. The guide gives detailed
instructions on how to use the device along with all the associated features in a convenient,
easy to read fold-out format. These resource guides however, are not provided to users when
the device is issued.

Several FEC PCD users also commented that they experience poor reception, device errors,
and frequently have to trouble shoot their device. The OIG noted employees with these
problems had older devices that may be near the end of their useful life. Based on a survey
response provided orally by an FEC office manager, some of their staff who have the older
Blackberry models would like to receive the upgraded devices that have been issued to some
employees. Others have stated that they rarely used their PCDs, are not inclined to carry the
device around, or would prefer to return their FEC issued PCD.




                                                                                             16
      AUDIT FINDINGS AND RECOMMENDATIONS 

Personal Communication Devices

1. Personal Communication Device Policy and Procedures Need Improvement

The FEC currently has two documents that cover policies and procedures regarding FEC
issued personal communication devices, Commission Bulletin 2001-11A, Policies and
Procedures for Issuance of Cell Phones and Pagers, and the Information Technology
Division’s Policy Number 58-4.4, Personal Communication Devices (PCD) Security Policy.
Commission Bulletin 2001-11A has not been updated since 2002 and although Policy 58-4.4
was last updated in July 2008, the policy requires substantial improvement. ITD has stated
that Policy Number 58-4.4 was intended to supersede the Commission Bulletin 2001-11A;
however, Policy Number 58-4.4 does not state that the policies and procedures are intended
to supersede those in Commission Bulletin 2001-11A and further, Commission Bulletin
2001-11A has not been removed from the FEC network to indicate that FEC employees
should no longer adhere to its policies and procedures.

The two documented policies have insufficient and conflicting policies and procedures
regarding the following aspects of the PCD program: a) the process for requesting a PCD; b)
the authority to request PCDs; c) approval of PCD requests; and d) the policy for personal
use of FEC issued PCDs. In addition, the policies for PCDs do not incorporate the Internal
Revenue Service (IRS) regulations governing cell phones as a taxable fringe benefit to the
employee when used for personal use.

Process for Requesting PCDs

The policies, as written, are not followed or being enforced. The OIG found that some of the
employees who sent requests to ITD are not authorized to request or approve a PCD,
according to Policy Number 58-4.4. Despite Commission Bulletin 2001-11A, requiring a
form to request a PCD, FEC has not implemented a standard PCD request form. Generally,
ITD issues PCDs based on requests received via e-mail from managers in the agency.
However, the e-mail requests for PCDs are not always retained for program records. The
FEC currently has 122 active PCDs. Out of the 122 PCDs issued, only 21 e-mail requests
were maintained by ITD documenting the request of a device.

According to Policy 58-4.4, requests submitted for PCDs should contain adequate business
justification to demonstrate how a PCD would be essential to the performance of the
employee’s official duties. The OIG found that ITD does not require the requestor to provide
adequate business justification when submitting a PCD request. The e-mail requests retained
and submitted for audit rarely contained adequate business justification demonstrating how a
PCD was necessary to support official duties of the employee. Only 10 of the 21 e-mail
requests maintained by ITD contained business justifications for the PCD user, and some of
the 10 justifications lacked sufficient detail to adequately document the business need for the
PCD. There is also no documentation required to verify that a PCD was issued to an FEC


                                                                                            17
employee following the request. As such, the FEC may incur program costs for PCDs
provided to employees with limited or no business need.

Recommendations

1a. 	   Maintain one comprehensive personal communication device policy for all PCD users
        that clearly defines who has the authority to request PCD devices for other staff in
        their business area.

        Management Response
        “Agree with recommendation: Commission Bulletin 2001-11A is outdated and does
        not reflect updated technology and improvements in telecommunications pricing.
        This bulletin has been superseded by Policy 58-4.4 and Commission Bulletin 2001-
        11A will be rescinded. Policy 58-4.4 will be updated to include many of the
        recommendations of this audit.”

        OIG Comment
        Management has agreed to have one comprehensive policy but has not indicated that
        the revised policy will define who has the authority to request PCD devices for other
        staff in their business area. We look forward to reviewing the revised policy to
        ensure it fully addresses this recommendation.

1b. 	   Develop and implement a Personal Communication Device Request Form for
        requesting PCDs that requires an adequate business justification for each PCD user
        and allows for increased flexibility for managers to select plan options (i.e. voice only
        or data only).

        Management Response
        “Disagree with recommendation. The request for the issuance of a PCD is at the
        discretion of the senior level managers, who will maintain the business justification
        for the personnel under their charge in accordance with Policy 58-4.4, and the
        requirements for disaster recovery and COOP. The method established for
        requesting is e-mail, no form will be established.”

        OIG Comment
        The OIG agrees with management that the issuance of the PCDs is at the discretion of
        the senior level managers. However, the OIG’s audit testing revealed that senior
        level management is not adequately informed about the PCD program costs and
        options in order to make an informed decision to justify and authorize PCDs.
        Therefore, the OIG continues to believe a standard form documenting the justification
        at the senior level, and then forwarded to the PCD program office for PCD issuance,
        is necessary. The form could also serve to inform managers about the PCD costs and
        options, which could be a factor in the justification process at the division level.

1c. 	   Require supervisors/managers to re-justify the business needs of current PCD users
        via a PCD request form.

                                                                                                18
        Management Response
        “Disagree with recommendation: The PCD users do not justify their business needs.
        The senior management team determines which key personnel requires the use of a
        PCD. Policy 58-4.4 will be updated to require senior management to re-certify the
        assigned personnel annually.”

        OIG Comment
        Based on the documentation reviewed during the audit, we feel management would
        benefit from the use of a standard form, which could be sent and received
        electronically, to adequately and consistently document the annual re-certifications
        performed by senior managers.

1d. 	   Issue devices only after adequate justification and formal request has been provided
        and approved.

        Management Response
        “Disagree with recommendation: The PCD users do not justify their business needs.
        The senior management team determines which key personnel requires the use of a
        PCD. Policy 58-4.4 will be updated to require senior management to re-certify the
        assigned personnel annually.”

        OIG Comment
        This recommendation relates to initial request and business justification receipt prior
        to ITD issuing a device. We recommend ITD issue devices only after adequate
        justification and formal request has been provided and approved.

1e. 	   Maintain all request forms for PCD users in the agency that includes (but not limited
        to) the make, model, issue date, and FEC property bar code number.

        Management Response
        “Disagree with recommendation. No request forms will be required, however the
        email request from senior managers authorized to make such requests shall be
        maintained on file, until replaced by the annual recertification emails. The
        assignment of a particular unit to a particular user will be maintained in the master
        PCD inventory tracking system.”

        OIG Comment
        The OIG continues to believe management should maintain all request forms to
        include the initial justification and annual re-certification. Further, we recommend
        the request for and assignment of a device is linked to physical documentation which
        indicates the device model, telephone number, and the date that the device was issued
        to the employee. That information can then be used to support and maintain the
        master PCD inventory tracking system.




                                                                                               19
Authority to Request PCDs

The procedures in Commission Bulletin 2001-11A gives all employees the authority to
request a PCD through the submission of a request form. However, according to Policy
Number 58-4.4, the only individuals who are authorized to request PCDs for other staff are
those identified as “base group” users. The base group users are individuals who are
provided a personal communication device based on their position or job duties (no request
needed), and have the authority to establish the core group of PCD users for their business
area.

The current list of base group users consists only of the following specific job titles and
offices in the agency:

    •   Commissioners;
    •   Commission Office Staff;
    •   Staff Director;
    •   Deputy Staff Directors;
    •   Office of Inspector General (OIG);
    •   Office of the Chief Financial Officer (OCFO);
    •   General Counsel; and
    •   Associate General Counsels.

Policy 58.4-4 fails to clearly distinguish between a) which specific employee positions
and/or offices can receive an agency issued PCD without a formal request form and b) which
employee positions in the agency have the authority to request PCD’s for other staff in their
business area.

Among the list of base group users is the entire Commission office staff. The latest revision
to Policy 58-4.4 in July 2008 includes the OIG and the OCFO as part of the base group.
When adding the offices as a whole (i.e. OCFO, OIG, Commission office staff) to the base
group users, the policy indicates that all staff within those specified offices, to include
individuals who are not management level or in supervisory positions has full authority to
obtain and request PCDs. The policy does not indicate what specific positions in the OIG
(i.e. Inspector General, Deputy IG) and OCFO (i.e. CFO, Deputy CFO) would have the
ability to obtain a PCD without formal request due to their position and/or FEC duties.

In some cases, the individuals that are requesting devices from ITD are listed as a base group
user. In other cases, ITD accepts PCD requests from individuals who, according to the
policy, do not have the authority to request devices for others in their business area.
Some of the individuals who do not have authority to submit PCD requests are in
supervisory positions. Although ITD allows these individuals in supervisory positions to
submit PCD requests, the policy does not identify these individuals as a base group user,
which provides authority to submit PCD requests for other staff.



                                                                                              20
Recommendation

1f. 	   Maintain one comprehensive personal communication device policy that clearly
        defines what positions and/or offices can receive PCDs without a formal request due
        to the employees’ position and/or required FEC duties (i.e. “base group”).

        Management Response:
        “Agree with recommendation: Commission Bulletin 2001-11A is outdated and does
        not reflect updated technology and improvements in telecommunications pricing.
        This bulletin has been superseded by Policy 58-4.4 Commission Bulletin 2001-11A
        will be rescinded. Policy 58-4.4 will be updated to include many of the
        recommendations of this audit.”

        OIG Comment
        Although management agrees with the recommendation, their response does not
        address the need for a policy that clearly defines what positions and/or offices can
        receive PCDs without a formal request. We look forward to reviewing the revised
        policy to ensure it fully addresses this recommendation.

Approval Process

FEC lacks a formalized approval process for PCD requests. The approval process in
Commission Bulletin 2001-11A conflicts with the approval process in Policy Number 58-4.4.

Commission Bulletin 2001-11A states:

        “After supervisory approval is obtained on the request form, employees will be given
        their new cell phone . . .”

Policy Number 58-4.4 states:

        “All requests to obtain a FEC PCD from staff . . . must be submitted in writing to the
        appropriate Deputy Staff Director, or Associate General Counsel for approval.
        Employees of the Offices of Inspector General and Chief Financial Officer should
        submit their request to their appropriate manager.”

The procedures in Commission Bulletin 2001-11A allow all supervisors in the agency to
approve PCD requests for their staff. However, according to Policy Number 58-4.4, the only
approving officials for PCD requests should be the Staff Director and Associate General
Counsels, with the exception of the OIG and OCFO. Only 3 of the 21 PCD requests retained
by ITD were properly approved to have PCDs according to ITD’s Policy Number 58-4.4.

In addition to having conflicting approval processes, ITD has not documented their annual
re-authorization process in their current policy. The re-authorization process consists of ITD
providing an e-mail to managers in the agency to receive confirmation that the current PCD
users in their business areas are still authorized to have a FEC issued PCD. Although ITD is

                                                                                               21
performing the reauthorization process, the process is not adequate and the most recent
reauthorization was incomplete. During the most recent re-authorization of PCD users, ITD
only confirmed reauthorization for 86 of 120 PCD users. Out of the 86 PCD users that were
re-authorized, 33 were validated as individuals still authorized to be issued a PCD by an
employee other than the Staff Director and Associate General Counsel, as required by Policy
58.4-4. The authorizing employee was also not in a managerial or supervisory position as
indicated in Commission Bulletin 2001-11A to approve a PCD request.

Recommendations

1g. 	   Maintain one comprehensive personal communication device policy that clearly
        identifies those in the agency with authority to approve PCD requests.

        Management Response
        “Agree in part with recommendation: Commission Bulletin 2001-11A is outdated
        and does not reflect updated technology and improvements in telecommunications
        pricing. This bulletin has been superseded by Policy 58-4.4 Commission Bulletin
        2001-11A will be rescinded. Policy 58-4.4 will be updated to include many of the
        recommendations of this audit. The revised policy will have to be reviewed after the
        revision, it is agreed that the present policy must be revised. ”

        OIG Comment
        Although management agrees with the recommendation, their response does not
        address the need for a policy that clearly identifies those in the agency with the
        authority to approve PCD requests. We look forward to reviewing the revised policy
        to ensure it fully addresses this recommendation.

1h.	    Document the ITD re-authorization process of PCD users in ITD’s Policy 58-4.4.

        Management Response
        “Agree with recommendation: Will be included in the update to Policy 58-4.4.”

        OIG Comment
        Agency’s planned actions are responsive to the audit issue identified and, when fully
        implemented, should satisfy the intent of the audit recommendation.

1i. 	   Identify who has authority to re-authorize PCD users in ITD’s Policy 58-4.4.

        Management Response
        “Agree with recommendation: Will be included in the update to Policy58-4.4.”

        OIG Comment
        Agency’s planned actions are responsive to the audit issue identified and, when fully
        implemented, should satisfy the intent of the audit recommendation.




                                                                                           22
Personal Use & Internal Revenue Service Regulations

Currently, PCD users are allowed to adhere to the policy and procedures regarding personal
use in Policy Number 58-4.4 Section 2.t which states:

       “PCD’s are issued for FEC business. Personal use should be limited to minimal and
       incidental use . . .Appropriate discipline may be taken if it is determined that the rule
       of minimal personal use has been abused.” [Emphasis added]

However, the “rule of minimal personal use” has not been defined and is not communicated
to all users to determine what level of personal use is allowed. Management also does not
provide policies and procedures to users when issuing devices.

Contrary to Policy Number 58-4.4 Section 2.t, the Commission Bulletin 2001-11A policy
prohibits personal use of agency issued cell phones, as follows:

       “No personal calls are to be made on the agency cell phones. The cell phone is for
       official use only.”

The OIG identified through audit testing that several employees use their FEC issued PCDs
for personal use and the level of personal use for some employees would not adhere to ITD’s
“rule of minimal personal use.”

In addition to the rule of personal use, the policies and procedures do not incorporate the
Internal Revenue Service (IRS) regulations regarding taxable fringe benefits. The FEC was
unaware that personal use of an FEC issued PCD should be included in employee wages as a
taxable fringe benefit. Subsequently, the FEC is not compliant with Internal Revenue Code
(IRC) 274(d)-Substantiation Requirements.

The IRS tax code (Title 26) requires employees who are issued cell phones by their employer
to clearly substantiate their business use from their personal use. The Internal Revenue Code
(IRC) 274(d) explains that substantiation is required for any “listed property.” IRC
280F(d)(4) identifies any cellular phone (or other similar telecommunications equipment) as
a “listed property” which is taxable to the employee as a fringe benefit if the device is used
for personal use. The cell phone device is taxable to the employee because “the nature of the
property lends itself to personal use.” The (IRC) 132(d) explains that business use is
excludable from the wages of the employee as a working condition fringe benefit; therefore,
“employees are required to account for business and personal use.”

IRC 274(d) notes that “records of business and personal use must be kept by the employee in
order to determine whether the value of any of the use is included in the employee’s wages.”
Further, if employees do not substantiate their business use from personal use, all use is
included in the wages of the employee.

Commission Bulletin 2001-11A Policy section, #2 states “Cell phone users must sign a
receiving report indicating calls and charges incurred are valid and made for official use,”

                                                                                              23
however, this policy has not been enforced or incorporated into the PCD security policy and
structured to incorporate IRS regulations. Commission Bulletin 2001-11A and Policy
Number 58-4.4 also do not indicate who in the agency is responsible for enforcing and
monitoring this IRS regulation.

Currently, the IRS is exploring methods to simplify the procedures for substantiating
employee’s business use of an employer provided cell phone. Until the legislation is
changed, IRS tax rulings remain in effect and the FEC should implement reasonable
measures to adhere to the requirements.

Recommendations

1j.	    FEC should adhere to the IRS regulations and revise program policies to reflect those
        regulations.

        Management Response
        “Disagree with recommendation: FEC senior management and Office of General
        Counsel will review IRS regulations to determine if any apply to the FEC policies
        regarding PCD use within the agency, and adjust our current policies to reflect
        current regulations. However, as discussed at the exit meeting, FEC management
        will hold in abeyance until further guidance issued by Commissioner of the IRS, in
        accordance with his statement dated 6/16/09”.

        OIG Comment
        Although the Commissioner of the IRS has “requested Congress act to make clear
        that there will be no tax consequences to employers or employees for personal use of
        work-related devices such as cell phones provided by employers,” the law is still in
        effect and management should take reasonable steps to adhere to current IRS
        requirements. These additional procedures and controls would also help ensure the
        program expenses were related to business activity rather than personal use.

1k. 	   Provide the policies and procedures for the use of PCDs to all PCD users when
        issuing a device.

        Management Response
        “Neither agree nor disagree here is what we will do: All policies and directives are
        maintained in a shared folder and is accessible to all FEC personnel. All users will
        be directed to that folder so they may review applicable directives.”

        OIG Comment
        Agency’s planned actions are responsive to the audit issue identified and, when fully
        implemented, should satisfy the intent of the audit recommendation.




                                                                                             24
2. Personal Communication Device Program Monitoring

FEC does not effectively monitor and manage the Blackberry program to control and reduce
program costs. AT&T has provided FEC with access to AT&T Premier Online Care, a
website that allows ITD program staff to manage program costs and other features of the
FEC’s AT&T service plan. By using the Premier website, FEC is able to: update individual
user information; make service plan changes; add and remove phone features; manage add-
on plans; suspend/reinstate phones; and review billing information. Although the AT&T
online tool is provided for effective and efficient management of FEC’s AT&T service plan,
the overall lack of program monitoring and ineffectively managing the program results in
inadequate records and additional cost to the agency.

Excessive Service Plan Costs

FEC incurs excessive monthly service charges for active spare PCDs and PCDs issued to
FEC employees but are not being used. ITD does not suspend or terminate devices in a
timely manner when an employee leaves the agency or when employees have been
reassigned from a temporary position that required an FEC issued PCD. According to the
FEC’s AT&T representative, FEC can suspend a phone with a code for “vacation
suspension” and the monthly fee will be reduced to $10 for 180 days. If service is canceled,
the AT&T representative can waive the termination fee for government users.
Audit testing showed 19 devices were either not assigned to staff or were assigned to staff
who had left the FEC and were inactive for a total of 107 months. If management had
suspended the PCD’s service, FEC would have been charged a lesser rate of $10 per month.
Instead, FEC retained service for the PCDs and paid full monthly service charges of
$8,614.39 over a 16 month period for inactive accounts. If the service was canceled, FEC
would have paid no additional fees as well as no termination fee.

PCD program staff stated that ITD maintains active spare devices in cases of immediate
need. However, AT&T’s telephone service can be activated within 24 hours of an activation
request through the FEC’s AT&T representative. Under the FEC’s prior Nation 450 service
plan from June 2009 through August 2009, FEC was charged $643.36 for four spare PCDs;
these telephone lines were activated in June 2009. Under the current Government Pooled
Plan, FEC maintains two active spare devices that are charged $158 a month collectively for
services that are not being used.

Recommendations

2a.    All unassigned devices should be suspended or service should be terminated if the
       device can not be immediately transferred to another user (no active spares kept in
       ITD). ITD retains a minimum of 10 inactive spare devices and a spare SIM. If
       required, a device could be activated within 24 hours.

       Management Response
       “Disagree with recommendation. ITD has in the past allowed too many devices to be
       at the ready, however there is a real need to maintain a minimum number of devices

                                                                                             25
           at the ready for immediate use in the event of a catastrophic or emergency situation
           and the non availability of personnel that has the authorization to activate a device.
           ITD will keep a minimum of three devices activated for use by any personnel
           designated by proper authority at a moments notice. This policy will be incorporated
           in the updated FEC PCD Policy.”

           OIG Comment
           The OIG continues to believe ITD should eliminate, or minimize to the maximum
           extent possible, the number of unassigned active devices. It is important to note the
           FEC’s recent roll-out of portable netbook computers should help alleviate the need to
           maintain unnecessary unassigned active devices.

2b. 	      Devices assigned to employees based on temporary roles should be recovered when
           the employee is no longer in the temporary position.

           Management Response
           “Agreed. Project management personnel will more closely monitor PDC’s that are
           no longer in use.”

           OIG Comment
           Agency’s planned actions are responsive to the audit issue identified and, when fully
           implemented, should satisfy the intent of the audit recommendation.

Assessment of Business Needs

Management does not assess the business needs of employees requesting PCD’s to provide
the appropriate service plan features and reduce costs to the agency. Instead, employees are
provided a device with no discussion or formal assessment of business needs compared to
service plan options. Based on our audit testing of employee PCD usage, PCD users are
assigned devices with plan features that are not aligned to their specific business needs.
Consequently, the FEC pays monthly service charges for phone features that are not used.
“It’s important for an organization to thoroughly understand . . . who is using the devices and
how they are using them.”6 OIG discussions with FEC’s AT&T representative revealed that
management is able to adjust the standard service plan of voice and data to fit users specific
business needs. Management has the ability to assign PCD users a data only plan (i.e. email),
as opposed to the bundled data and voice service plan. If the user selects a data plan with no
voice feature, AT&T adds a $5.00 fee to the monthly data plan. For instance, the cost of the
standard data plan with a voice feature is $44.99 per month. When the monthly cost of the
voice feature, $39.99 is included, the total monthly service charge is $84.987. If the user only
has a data plan, the total monthly service cost is only $5.00 additional to the standard data
plan, a total monthly service charge of $49.99. The OIG’s review of PCD users’ monthly


6
 Greengard, Samuel. “The Fusion of Business and Technology: Minding Your Mobile Assets.” Baseline
November 2009: 23+.
7
    Total monthly service charge for the bundled plan does not include FEC’s government discount of $7.68.

                                                                                                             26
activity showed that several users could reduce their plan to a data only plan and produce
substantial cost savings to the agency.

The OIG conducted detailed testing of PCD usage under the Nation 450 plan for the 16
month period, May 2008 through August 2009. The OIG identified a total of 65 PCD users
with minimal to no use of their devices. This includes users who had 0 voice minutes used
and 0 data usage or only used 10 percent or less of their voice minutes during the time they
were assigned the device.

For the 16 month period, May 2008 to August 2009, FEC paid $77,362.73 or 52 percent of
the total program service costs for the period for the 65 PCD users to have a combined data
and voice plan. The monthly service charge for a standard bundled plan of voice and data
under the Nation 450 plan was $77.30. When separating the PCD users in the categories of
users with no voice or data usage, and users with less than 10 percent of voice minutes used
over the 16 month period, FEC paid:

           •	 $6,909 for 5 users with no voice OR data usage for half or more of the 16
              month testing period; and

           •	 $70,453 for 60 users who only used 10% or less of their voice minutes.

If the 65 users were only charged a data only plan, the monthly service fee would have been
reduced to $49.99 per user and the potential savings to the agency would have been
approximately $32,359 in program costs.

The FEC structured their new Government Pooled plans to give the agency a monthly
allowance of 12,900 minutes to be shared among all users. Although the Government Pooled
plans are not structured where each individual is assigned to their own monthly minutes,
management can still reduce cost to the agency. If management adjusted the service plans of
the users with minimal or no voice use, to just a data plan, several service plans would
decrease to $49.99 per month and program costs would be reduced. The employee survey
results showed that out of 115 PCD users who responded to the survey, 49 do not use their
voice feature, and 10 users feel that the PCD is not necessary to efficiently and effectively
perform their FEC duties. Potentially these PCD users could do without the device.

The OIG is aware there are PCD users who may not frequently use their voice feature, but
due to their required FEC duties, the voice feature for their service plan is necessary. The
OIG also recognizes that the users’ managers are ultimately responsible for identifying
employees who should be assigned PCDs to effectively perform their job. However, audit
testing shows that FEC could significantly reduce program costs by monitoring and
providing services that fit users’ needs.

Recommendations

2c. 	   Review the audit testing results for users with very limited or no usage and
        determine if an actual business need exists to retain the device. If a valid need exists,

                                                                                               27
        ensure the employee still has the device, it is serviceable, and the employee
        understands how to use the device.

        Management Response
        “Disagree with recommendation. It has been determined by senior FEC management
        that in order to properly conduct continuous business, while both in the local FEC
        geographical area, or on travel in the conduct of official or non-official business, or
        in the event of a disaster, or emergency that certain key personnel are required to be
        in communication with FEC officials. These key personnel will be identified by the
        authorizing senior level FEC managers without question from ITD program
        administrators. Policy 58-4.4 will be updated to reflect the annual certification by
        senior level management will be used to determine that the persons assigned a PCD,
        are to continue to be authorized to use FEC PCD. The employees issued PCD’s will
        be issued them in accordance with Policy 58-4.4, it is up to the individual managers
        to ensure that the employees understand how to use the device, ITD training
        personnel are available to assist the managers in this endeavor. The authorization,
        use, care, and individual accountability for the devices is not the responsibility of the
        ITD.”

        OIG Comment
        The OIG recognizes management’s intention that some employees, no matter the
        level of use exhibited, will be issued a device based on business continuity need. We
        also recognize that management may wish to reevaluate the need for some employees
        based on past use. The OIG believes that a device that is powered off, not carried
        with employees at all times, or is not serviceable, will never meet FEC management’s
        intended business need and is a waste of government funds. We recommend
        management review the historical user activity reports for users with very limited or
        no usage and determine if an actual business need exists to retain the device. If a
        valid need exists, ensure the employee still has the device, it is serviceable, and the
        employee understands how to use the device.

2d. 	   Document the requestor’s expected need for a PCD (i.e. e-mail only, phone
        communication, e-mail and phone) through a request form to determine which plan
        feature(s) best fit the requestor’s business need (i.e. data only plan, voice only, or
        bundled plan).

        Management Response
        Disagree with the recommendation. The FEC has one and only one plan based upon
        the desires from the senior level management, that all personnel issued a PCD have
        the capability for voice, data, and text communication. In order to accommodate
        these criteria, the ITD assisted the contracting officer in plan and device selection. It
        has been determined by FEC senior management that in order to be able to respond
        to any catastrophic or emergency situation, that all FEC PCD user’s are able to
        access or be accessed through voice, data transmission or texting. This approach to
        emergency preparedness as well as the efficient conduct of daily business



                                                                                                 28
        transactions has been deemed by senior FEC management to be the most effective use
        of the agency budget for this type of communication system.

        OIG Comment
        The OIG understands that management has one AT&T service plan, however; this
        plan can be adjusted to add or remove features to best fit the agency’s needs and also
        produce cost savings to the agency. The FEC currently has one PCD user whose plan
        has been adjusted to a data only plan. The OIG’s Employee Mobile Survey combined
        with the OIG’s audit testing indicates that the agency pays monthly service costs for
        several users who do not use their voice feature. We recommend that management
        provide managers/supervisors with the option to assign their staff with the plan
        features that best fit the business needs of the agency.

2e. 	   Notify managers during the reauthorization process of the ability to revise PCD plan
        options in the future to appropriately support the PCD user’s business need (i.e. if
        the user requests a data and voice plan but only uses data, their standard service can
        be reduced to a data only plan).

        Management Response
        “See response above. The FEC has one plan for all users.”

        OIG Comment
        The OIG understands that management has one AT&T service plan, however; this
        plan can be adjusted to add or remove features to best fit the agency’s needs and also
        produce cost savings to the agency.

Inadequate Records

FEC’s monthly invoices from AT&T do not always accurately reflect the name of FEC
employees that are assigned PCD devices. Based on the OIG’s audit testing, ITD program
staff continuously failed to update the AT&T Premier website in a timely manner to reflect
new PCD users, or PCD users who had left the agency and their device and/or telephone line
had been transferred to another user. The FEC has had the ability to access and update
account details using the AT&T Premier website since June 2008. As a result of the ITD
program staff’s failure to update the account details, FEC had 283 instances over the 16
month period where several phone lines on the FEC billing invoices did not reflect the name
of the FEC employee assigned to an active telephone line. Further, once ITD program staff
was provided the ability to assign the names of PCD users in the AT&T Premier website in
June 2008, FEC failed in 141 instances to record the correct FEC employee to their assigned
telephone line in the AT&T billing system from June 2008 through August 2009. In addition,
ITD’s Blackberry asset listing did not reflect four active spares that were obtained in June
2009 in which only two of the four PCDs were then issued to users in October 2009.

All active telephone lines should be recorded as spares or assigned to the correct PCD user
for accurate record keeping. Also, adequate records are necessary to properly monitor PCD
user’s usage for unusual activity levels and improper service charges.

                                                                                              29
Recommendation

2f. 	   PCD user information should be kept up to date and adjusted in a timely manner on
        the ITD master Blackberry listing and the AT&T Premier website for employee
        separations and new assignment of devices.

        Management Response
        “Agree. User information will be kept up to date in a timelier manner to include the
        AT&T website. The Policy 58-4.4 will be updated to reflect the monitoring of the
        information.”

        OIG Comment
        Agency’s planned actions are responsive to the audit issue identified and, when fully
        implemented, should satisfy the intent of the audit recommendation.

Knowledge of Service Plan

Throughout the 16 month testing period, FEC incurred extra usage charges. ITD fails to
provide sufficient information to PCD users regarding plan details and device features that
result in additional charges. As stated above in the Employee Survey Results, 83 PCD users
out of 115 who responded to the survey are unaware of the FEC’s service plan details.
Employees and managers are not notified of:

           •	 plan options that can reduce their standard monthly cost (i.e. data only or
              voice only plans);

           •	 phone features that incur additional cost to the agency (i.e. directory
              assistance, roaming); and

           •	 the ability to revise plan features in the future to best fit the FEC’s business
              needs.

For the voice plans, FEC spent $1,615.63 during the 16 month testing period in usage
charges. The usage charges related to directory assistance calls ($1.79 to $1.99 per call) and
calls made during international travel and outside of AT&T’s network area. FEC’s data plan
also incurred usage charges totaling $2,160.66. The data plan usage charges included texting
(20 cents per text), data connectivity/transfer and roaming charges for international travel, or
travel to locations not considered in AT&T’s network area. Prior to April 2009, FEC paid 20
cents per text message. ITD program staff identified instances of contacting specific PCD
users due to excessive use of the texting feature that caused high dollar service fees.

Recommendation

2g. 	   Management should educate PCD users of all features that incur additional cost to the
        agency, such as roaming charges that result when employees place calls outside

                                                                                                 30
       AT&T service areas; texting; directory assistance; and voice use over the pooled plan
       limits.

       Management Response
       “Agreed. Since the beginning of this fiscal year (FY10) the FEC has gone to an all
       inclusive billing that allows each user 200 minutes of voice, pooled to avoid overage
       charges, unlimited data and unlimited text. The users will be kept abreast of plan
       changes.”

       OIG Comment
       Although management agrees, it is important that management ensure the users are
       informed of plan features that incur additional charges, such as: roaming charges that
       result when employees place calls outside AT&T service areas; directory assistance;
       and voice use over the pooled plan limits.

Add-on Service Features

Device features that are not included in the standard service plan are not properly managed
by ITD program staff. Some FEC employees have international add-on plans that cost an
extra $20 per month. Other PCD users who travel internationally that do not have an
international add-on plan are charged various extra fees per kilobyte for data (amount varies
depending on location of travel), and anywhere from $0.09 to $3.49 per minute for voice
while on international travel. International add-on plans are retained as part of the monthly
service plan for several PCD users. The add-on plans are retained for several months after
users have returned from travel. The OIG also identified a user who does not travel
internationally for business as part of their FEC duties but is assigned an international add-on
plan. During the scope of the audit, FEC paid $8,343.49 in international add-on plans for 15
PCD users in which:

            •	 6 of the 15 users have no record of travel for the total number of months they
               were charged for an international add-on plan. This resulted in a total service
               charge of $2,620.23;

            •	 3 of the 15 users have no record of travel during the entire 16 month period
               reviewed, resulting in service charges totaling $955.11; and

            •	 the last 6 of the total 15 users where charged for an international add-on plan
                for several months before or after their actual travel dates which resulted in
                $2,754.38 in service charges.

       As a result of the above conditions, the FEC overpaid service costs by $6,329.72 for
       international add-on plans.




                                                                                              31
Recommendation

2h. 	   Provide the international add-on plan to the standard monthly service for users who
        frequently travel internationally for business. Require written request for the
        international add-on plan for PCD users who do not frequently travel internationally
        for business. This request should include their beginning and ending date of travel.
        Based on the information, the international service option should be promptly
        activated and terminated.

        Management Response
        “Agree with recommendation. When an authorized user is performing international
        travel, an e-mail request is submitted to the Blackberry administrator with the period
        of international travel. The administrator then activates international add-on plan
        for the period requested. When the traveler returns, an email is sent to terminate the
        international add-on plan. The email communication is the only communication
        required, no form will be necessary.”

        OIG Comment
        ITD should ensure that the beginning and ending dates of travel are included in every
        PCD users’ e-mail requests to activate international add-on plans. Also, the
        Management Assistant who is responsible for activating the international add-on plan
        for users should establish a method that will ensure timely termination of the
        international add-on plan service when users return from travel.

Managing Service Plan Features and Cost

Based on the audit testing, the OIG determined there was insufficient communication
regarding the details of the PCD contract between ITD and the Office of Procurement. The
FEC Contracting Officer recently transitioned the agency from the AT&T Nation 450 plan to
the Government Pooled 100 & 200 plans. The decision to change service plans was based
solely on an assessment of the minutes used by FEC PCD users, an analysis conducted by an
AT&T account representative. The AT&T account representative then provided a quote for
the Government Pooled plans to the Contracting Officer based on the assessment. According
to the Contracting Officer, the change to the new pooled plan was expected to reduce
program costs by 10 to 20 percent annually. The Contracting Officer’s decision to switch
plans was performed without consultation with the PCD program area staff knowledgeable of
employee usage levels (minutes), as well as specific user needs and service features. The
FEC’s monthly AT&T invoice increased an estimated $2,260 after changing to the
Government Pooled Plan 100 & 200. The increase was due to 113 devices being charged an
additional $20 per month for unlimited texting, a service feature included in the Nation 450
plan at no additional cost. The additional cost for texting was not included in the quote
provided by AT&T to the Contracting Officer prior to changing service plans. It is likely
that consultation with the PCD program office would have highlighted the discrepancy that
the quote for the Government Pooled Plans lacked information on texting, and whether the
agency would incur additional charges for the texting feature. The PCD program office does
not periodically review the service plans offered by their current provider or conduct market
research of other potential vendors to decrease program costs.
                                                                                            32
During audit testing, the OIG selected T-Mobile and Verizon Wireless from the General
Services Administration (GSA) contractor schedule to compare the cost and available
minutes to the FEC’s AT&T Government Pooled plan. The FEC’s Government Pooled 100
and 200 plans give FEC users 12,900 shared anytime minutes, 5,000 nights and weekend
minutes, and unlimited mobile to mobile minutes. The FEC retained their unlimited
domestic data plan, and unlimited domestic air card service under AT&T. The OIG
downloaded T-Mobile and Verizon’s GSA pricing schedule and contacted sales
representatives to receive cost information regarding their service plan options and hardware
(i.e. mobile devices and air cards) that would closely mirror the FEC’s current AT&T
Government Pooled Plans and hardware.

T-Mobile provided the OIG with a detailed spreadsheet of the estimated annual costs based
on the current number of PCDs issued to FEC employees. The OIG included one standard
cell phone that is used by investigators, and 9 air cards that the FEC also has with AT&T
which is included in the total annual fee of $114,465 for the AT&T Government Pooled
Plans. The plan for T-Mobile that would closely mirror the current FEC AT&T plan would
be the Nationwide Enterprise Plan 50 (GS-35F-0503M). Under the T-Mobile plan, the
agency would receive 50,000 monthly pooled minutes, 50 free lines, free mobile to mobile,
unlimited nights and weekends, and 400 text messages per user each month. The plan would
also include free Blackberry devices for phone models 8220, 8820, 9700, or 8900, and free
air cards. The estimated annual cost to the agency for the T-Mobile plan is $62,308, which is
an annual savings of $52,158 compared to AT&T’s Government Pooled plans. For the
Verizon Voice and Data bundle plan (GS-35F-0119P), FEC would receive 300 minutes per
user each month that can be shared (38,700 pooled minutes), unlimited nights and weekends,
unlimited mobile to mobile, and unlimited data and domestic text messaging. Verizon would
provide all air cards and Blackberry curve 8830 devices at no cost to the agency. The
estimated annual cost to the agency for the Verizon plan is $79,881, which is an annual
savings of $34,585.
The table on the following page is a summary table of the monthly service costs for
comparable service by vendor:




                                                                                           33
                           General Services Administration Schedule Pricing

                  Monthly Service Fees                  AT&T          T-Mobile        Verizon

          Voice & Data Plan (119 phones)              $8,918.82       $4,566.21       $5,948.81

          Data Only Plan                                $50.00          $32.80         $34.99

          OGC standard cellular telephone               $30.00          $24.59         $29.99

          Air Card Service (9 cards)                   $540.00         $369.00         $386.91

          Regulatory Charges Estimated 4%                 @            $199.70         $256.03

                                    Monthly Total     $9,538.82       $5,192.30       $6,656.73

        Price quotes were obtained by the OIG for audit purposes only. The prices stated in the table above
        are not committed prices by the vendors. Final contract prices may vary. The OIG’s calculations for
        T-Mobile and Verizon reflect the current number of FEC PCD users and air cards as of October 2009.
        @ The AT&T rates listed in the table above include the regulatory charges in the monthly service fee.

Recommendations

2i. 	   ITD’s Management Assistant should annually monitor monthly PCD usage to asses if
        the current plan should be adjusted to appropriately meet user needs.

        Management Response
        “Agreed. This action is performed by the contracting officer at the time of contract
        renewal.”

        OIG Comment
        Management’s response indicates the assessment is performed at the contract renewal
        by the contracting officer. The OIG continues to believe the ITD Management
        Assistant should monitor monthly PCD usage and annually assess if the current plan
        should be adjusted to appropriately meet agency needs. This person reviews the
        monthly invoices and is most familiar with the plan features and billing details.

2j. 	   Prior to renewing PCD services or switching service plans, the Contracting Office, in
        consultation with the PCD Program Office, should conduct and document analysis of
        service plans offered by the current provider and other potential vendors on the
        GSA schedule to achieve best value for the agency. Further, the Contracting Office
        should discuss actual plan details and agency use with the PCD program office and
        ensure any negotiated service options, such as free texting, are included in quotes
        from potential vendors.




                                                                                                          34
           Management Response
           “This action is the responsibility of the contracting officer and is conducted in
           accordance with the requirements of the FAR. The contracting officer routinely takes
           this action on each and every contract action he authorizes, as required by law.”

           OIG Comment
           The OIG continues to believe it is in the best interest of the agency for the program
           area (point of contact), working with the Procurement Office, to conduct market
           research and obtain additional quotes prior to awarding another blanket purchase
           agreement (BPA) contract for personal communication devices in FY 2011, the year
           the current contract is scheduled to expire.

           According to the FEC’s Procurement Office policies and procedures, “it is everyone’s
           responsibility to ensure that market research is performed for all actions that require
           the expenditure of appropriated funds.” According to the FEC Procurement
           Procedures 10, “the following BPA Review procedures will be coordinated via the
           Director of Procurement to the appropriate POCs/COTRs8 through the CFO Internal
           Control Program on an annual basis. The contracting officer that entered into a BPA
           shall-
                  A. Ensure each BPA is reviewed annually and, if necessary updated any
                  pertinent contract information at that time; and

                   B. If the BPA is under a GSA schedule ensure that the most recent GSA
                   Schedule for pricing has been distributed to the ordering officials and inserted
                   in the file.

                   C. Maintain awareness of changes in market conditions, sources of supply,
                   and other pertinent factors that may warrant making new arrangements with
                   different suppliers or modifying existing arrangements.


3.         Tracking and Managing Personal Communication Devices

ITD does not keep adequate records regarding FEC PCDs and does not efficiently and
effectively manage devices to prevent fraud, waste and abuse. Also, ITD is not in
compliance with Commission Bulletin 2006-04 for tracking PCDs. Specifically, ITD does
not maintain an inventory of PCDs in the Fixed Asset System (FAS) and FEC property bar
codes are not assigned to mobile devices.

Asset Tracking

ITD maintains several Excel spreadsheets to keep inventory records of:

      •	 the names of PCD users issued PCDs, including the date the PCD was issued, model
         number, device serial number, and telephone number associated with the user/device;
8
    Point of Contact (POC) and Contracting Officer’s Technical Representative (COTR)

                                                                                                35
       •	 which devices are unassigned (spare devices); and
       •	 devices that have been lost, stolen, broken, or discarded.

At the beginning of the audit, the OIG received an inventory listing of devices held by the
agency. The listing provided on August 28, 2009 did not include:

       •	 PCDs no longer in use due to upgrade or breakage, but still retained by the agency in
          storage;
       •	 14 Palm Treo 650 models that are in near new condition;
       •	 devices that were lost or stolen;
       •	 devices that were destroyed and disposed of by ITD staff;
       •	 new devices held as spares;
       •	 four service plans that were activated in June 2009; and
       •	 complete details on the date devices were issued to employees. Nine (9) of the 116
          listed devices did not have the date issued field completed9.

In May 2009, a device was listed as assigned to an FEC employee who never accepted the
FEC issued device. Further, the assignment of the device to the user’s name was listed on
the AT&T monthly invoices through December 2009. In addition, the employee survey
results revealed that 20 PCD models assigned to users on the ITD Blackberry listing were
incorrect. This may indicate that employees were unable to correctly identify their model
number or that the ITD asset listing requires update.

A second PCD listing was provided on January 15, 2010 that included devices disposed of by
ITD, older devices no longer in use, lost and stolen items. However, the listing did not
include the date devices were issued to employees. Further, most items in the asset listing
did not include the date returned by employees even though the asset listing contained a field
to capture the data. None of the listings included a field to record the date an item was
disposed by the agency. The second asset listing also did not include all devices that had
been purchased, used by agency staff, but then replaced by newer devices, such as the Palm
Treos procured in fiscal year 2006.

Upon request, a third asset listing was provided on January 15, 2010 with detail of the 15
Palm Treo’s purchased for ITD staff use in fiscal year 2006 and 2007. Finally, a fourth asset
listing was provided January 20, 2010 by ITD’s Management Assistant who is responsible
for maintaining the asset listings.

The fourth listing was an Excel workbook with different worksheets for “in service,”
“unassigned” and “out of service” but did not include older devices held in storage or all new
devices received in 2009. The listing did not contain an accurate status of all new devices
received prior to January 20, 2010.


9
    The majority of items not containing a date related to PCDs issued to ITD staff members.

                                                                                               36
Recommendations

3a. 	   Adhere to Commission Bulletin 2006-04 and track personal communication devices
        in the Fixed Asset System and apply barcodes to all devices.

        Management Response
        “Since Commission Bulletin 2006-04 address mainly cell phone and pagers, and
        modern PCD’s it shall be rescinded and replaced with Policy58-4.4. Policy58-4.4 is
        in processed of being revised to include some of the recommendations contained in
        this audit, and to provide additional clarity.”

        OIG Comment
        Management’s response does not indicate whether they agree fully with the
        recommendation or provide explanation of their disagreement.

PCD Status and Location

The current method of tracking PCDs and their status using the Excel spreadsheet is not
effective because the spreadsheet does not contain defined fields to document dates issued,
returned, and location of assets that are not issued to employees. The current PCD listings
reflect a point in time snapshot rather than the life-cycle for each asset. Review of the PCD
listings showed 11 devices were reported lost, 4 were reported stolen and 38 are broken. Per
ITD’s Policy Number 58.4-4, if a PCD is stolen, the PCD user is responsible for filing a
police report as soon as possible. No police reports were available for the items listed as
stolen. It is unclear if employees filed a police report but failed to provide a copy to the FEC,
or the employee did not file a report as required by the policy. Of the devices listed as
broken, one was returned to AT&T under warranty and replaced. Two of the devices listed
as broken were not located in the boxes of broken devices provided for stocktaking during
the audit.

Obsolete and broken assets held by the FEC in storage were provided to the OIG for
stocktaking, as were spare devices. Detail information regarding equipment purchases in
monthly invoices show the FEC paid for 13 air cards at $49.99 each for wireless computer
connectivity when employees are on business travel. Three cards were returned and the asset
listing provided by ITD listed only 9 wireless devices as issued to FEC staff and no
additional devices were presented for stock take or listed as spares. Therefore, the FEC
could not account for 1 air card.

The asset listings provided for the audit contained inaccuracies. For instance, one Blackberry
8700c is listed as “out of service” due to a former employee’s failure to return the device
when leaving the FEC. The person ceased to have access to an FEC issued communication
device in September 2006, and at that time, the FEC only used Blackberry models 6290,
7280, 7290 and Palm Treos. The OIG’s review of agency records show the employee had
actually been issued a Blackberry 7290, which is now listed as “discarded” in the asset
listings. The FEC upgraded existing telephone lines to Blackberry models 8100 and 8700c
beginning in December 2007, more than a year after the employee had access to a device

                                                                                              37
removed and nine months after the employee resigned. The agency received PCD upgrades
for telephone lines but did not always issue the upgraded devices to the person whose
telephone line qualified for a free upgrade. In this case, it appears a Blackberry 8700c was
received as an upgrade for the telephone line previously assigned to the employee. The loss
of the 8700c is incorrectly attributed to the former employee who could not have been issued
the device retaining it when he left. Review of monthly invoices showed FEC program
management had the telephone assigned as “Supply room” and not to a particular employee.
It is unclear whether the new device was ever issued to any FEC employee. The device was
not noted among broken or spare devices during stocktaking.

The OIG’s review of agency records showed that 15 ITD employees were issued Palm Treos
in 2006, and service for those devices was terminated by March 2007. When the Palm Treos
were purchased, new telephone numbers were obtained and those numbers were terminated
when the service plans for the Palm Treo devices were canceled. New telephone numbers
were assigned to the 15 ITD employees along with a new Blackberry 8100 or 8700c device
procured as a replacement to the Palm Treos. The monthly invoices show program
management reviewed the invoices and wrote the employees’ names next to the new
telephone number assigned to employees with the Blackberry 8100 and 8700c device
models.

Procedures regarding the distribution of PCDs to users are not documented or enforced.
According to the Administrative Assistant, who manages the device assignment and
distribution processes, employees must return a device in order to receive another device.
ITD provided an upgraded device to a user who was not required to return the previously
issued device until nearly three (3) months after receiving the upgrade. Specifically, the
initial PCD inventory listing provided to the OIG on August 28, 2009 showed an employee
was assigned a Palm Treo. The Palm Treo’s service was canceled and the model had been
replaced in March 2007 by a Blackberry model. The second inventory listing provided by
ITD showed the employee had been issued a Blackberry 8700c which was now classified as
spare10. The Palm Treo assigned to the employee was not located in the boxes of spares and
broken devices provided to the OIG for stock take. Instead, the Palm Treo was returned by
the employee within a few days of the OIG’s request during the audit. Based on the most
recent asset listing, the OIG determined the employee received a Blackberry 8320 in October
2009. The 8700c previously assigned to the employee, after the Palm Treo service was
canceled, was not listed as assigned to another employee until January 2010. The Palm Treo
should have been returned in March 2007, when a subsequent device was issued, or October
2009 at the latest. Therefore, the OIG determined that some users were not required to return
their old PCD device prior to obtaining an upgraded device. This practice conflicts with
program management’s assertion that an employee must return a device in order to receive a
new device.

Recommendation

3b. 	      Document and enforce the policies and procedures for issuing a new or upgraded
           device to an FEC PCD user, including return of previously issued device(s).
10
     The date the 8700c was issued to the employee was not included in the asset listing.

                                                                                            38
       Management Response
       “Policy 58-4.4 is in processed of being revised to include some of the
       recommendations contained in this audit, and to provide additional clarity.”

       OIG Comment
       Management’s response does not indicate whether they agree fully with the
       recommendation or provide explanation of their disagreement.

Asset Disposal

PCD inventory listings provided by program management showed 49 devices were rendered
unserviceable and discarded by the FEC. Program management did not provide
documentation to support when the PCDs were discarded, who performed the destruction,
and whether a second person verified the destruction was performed. According to staff,
devices are “wiped” prior to destruction to erase the memory and the subscriber identity
module (SIM) card is removed. Devices are rendered unserviceable by striking the PCDs
with a hammer and disposed of by placing the broken pieces in a trash receptacle.

Program management does not attempt to dispose of working devices through GSA, where
the PCDs might be used by other agencies or be sold to the public. We noted that 14 of the
15 Palm devices appeared nearly new and could have been provided to GSA in March 2007
for use by other agencies, or been offered to FEC employees as an option to their PCD.
Instead, the Treo devices have remained unused and in storage. Further, while some
Blackberry devices have cracked or blemished screens, many others listed as broken
appeared serviceable and passed basic functionality tests. The inventory listings did not
always include detail of the device malfunction. The OIG contacted one PCD user whose
device was labeled broken and was issued an upgraded device, to identify what feature(s) of
the device was broken that required a new device. The PCD user stated that the upgrade was
not provided due to a broken device, but only because the user had an older model.

Program management does not attempt to use GSA disposal channels to minimize
environmental impact, recognizing the PCDs typically contain rechargeable batteries, even
though the disposal channel is the same as that currently used for excess FEC computers and
furniture.

Recommendations

3c.    ITD staff coordinate with GSA and implement processes and procedures to ensure:
           •	 devices no longer needed are made available to other government agencies or
              non-profit organizations; and
           •	 obsolete or broken devices are disposed in a manner that is not detrimental to
              public health.



                                                                                          39
       Management Response
       “Policy 58-4.4 shall be updated to reflect that all devices that are broken, obsolete,
       or have reached the end of the FEC service life shall be turned into GSA.”

       OIG Comment
       Agency’s planned actions are responsive to the audit issue identified and, when fully
       implemented, should satisfy the intent of the audit recommendation.


3d.    ITD should implement a form and process, such as the NIST Sample Sanitization
       Validation Form, to record sanitization (wiping) of devices, disposal and/or
       destruction, as appropriate.

       Management Response
       “Preparation for disposal of all PCD’s shall be in accordance with existing
       provisions of Policy 58.”

       OIG Comment
       Management’s response does not indicate whether they agree fully with the
       recommendation or provide explanation of their disagreement.

Segregation of Duties

In the past, procurement of PCDs was done via the standard purchasing methods with the
associated procurement controls: purchase order request; obligation of funds; subsequent
management and budgetary approvals; billing by vendor; and approval for payment once
goods were received. Now, however, the AT&T’s on-line client service website Premier
allows customers to obtain goods and services directly from the vendor. Currently, the FEC
obligates funds annually under a blanket purchase agreement to cover the AT&T monthly
service costs and PCD purchases, as needed.

Orders for PCDs are billed to an active account (telephone number) in the monthly AT&T
invoices for services. It is not always clear that the monthly invoices include both monthly
service costs and costs for PCDs. Only through close review of the summary invoices for an
unusually high dollar amount in the “monthly service fee” or “credits, adjustments and other
charges” categories, then a review of the detail transaction section of the bill for that
telephone number, can a person determine whether a new device was ordered and billed. For
PCDs requested and received free of charge under upgrade promotions, it is even more
difficult to determine whether devices have been ordered and received. Only through
detailed review for nominal shipping fees, retention of device requests (emails), order
confirmations (online via the website) and shipping documentation (contained in the box
with shipped devices), can it be determined that devices were ordered and received by the
FEC.

ITD does not ensure proper segregation of duties and oversight for managing PCDs. Since
gaining access to the AT&T Premier website in June 2008, the ITD Management Assistant

                                                                                                40
who is responsible for managing PCDs, has obtained 60 PCDs, of which 40 were free under
upgrade promotion, and purchased 10 air cards. On at least one occasion, the free devices
were shipped directly to the ITD Management Assistant, who not only orders the devices, but
also records the devices into the Excel spreadsheet used to manage the assets. The
Management Assistant is also responsible for storing spare devices and distributing the PCDs
to employees, as well as receiving broken or older devices from employees for disposal.
According to the ITD Management Assistant, once a number of old or broken devices are
accumulated, they are passed to another ITD staff member for destruction. The ITD
Management Assistant also reviews and approves the monthly invoices for payment. The
ITD Management Assistant’s direct supervisor does not review the monthly AT&T invoices
to determine whether assets have been ordered, and does not access the Premier website to
determine whether mobile devices have been shipped to the FEC. As such, there is
inadequate segregation of duties and oversight of asset procurement, recording, distribution,
storage and disposal. The lack of segregation of duties and insufficient management
oversight creates a risk of asset fraud, waste and abuse. Assets could be obtained without
management knowledge and removed from the agency for personal use and/or financial gain.

Recommendation

3e.     Segregate the following program functions among three or more ITD staff:

           •	 Purchasing/ordering and recording assets;
           •	 Authorization for purchases, including devices received free under upgrade
              promotion;
           •	 Receipt, storage, and distributing of assets; and
           •	 Destruction or disposal of surplus PCDs.

       Management Response
       “ITD currently has three separate IT staff personnel involved in separate duties, one
       to authorize purchase, one for the recording of devices, and one to distribute the
       devices. Policy 58.4-4 will be updated to reflect the staff duties.”

       OIG Comment
       During the period of audit, the OIG identified weak internal controls regarding the
       proper segregation of duties for managing the PCDs. ITD’s Policy 58-4.4 should be
       updated to identify the ITD personnel who will be responsible for obtaining PCDs
       online with AT&T; authorizing purchases, to include free devices under upgrade
       promotions; receiving, storing, and distributing PCDs; and the disposal and
       destruction of surplus PCDs.




                                                                                           41
Fleet Vehicles and Fleet Charge Cards

4.      Fleet Vehicles and Fleet Charge Card Program Controls

In 2006, FEC Admin management was alerted to possible employee abuse of agency leased
fleet vehicles. After conducting a review, program management determined an employee
used agency vehicles for personal use. The employee subsequently resigned from the FEC.
Two of the four leased vehicles were returned to GSA after management determined the
vehicles were no longer needed. In addition, abuse of fleet charge cards was suspected but
not proven because the abuse could not be directly associated with one or more individuals.

Currently, there are not sufficient management controls in place to detect or prevent
employee fraud, waste and abuse of fleet vehicles and fleet charge cards. Further, there are
not sufficient controls to detect and correct mileage reporting errors by agency staff, or
billing errors by GSA Fleet Services. During the audit, the following control weaknesses
were noted for the billing periods September 2006 through September 2009:

     •	 Admin staff tasked with driving fleet vehicles maintained trip logs from March to
        September 2006, but did not record mileage for each trip. Except for logs used for
        five days in September 2006, the forms used to log driving activity did not contain a
        field to record mileage per trip, therefore program management could not compare
        actual miles driven to expected mileage, to detect or prevent employee abuse.
        According to Admin staff, program management did not review the logs and vehicle
        trip logs are no longer created or maintained by Admin drivers. Further, the OGC
        Investigators maintain a trip log but do not record miles driven per trip. The OGC log
        documents vehicle sign-out by Admin staff who also use the vehicle occasionally to
        meet agency business needs, but not the trip detail. The OGC log is not provided to
        Admin management for use in building an expectation of monthly use and
        comparison to mileage reported to GSA for monthly billing.

     •	 Admin management does not monitor actual miles driven or fuel efficiency results,
        both of which could highlight employee vehicle abuse. Based on a review of
        standard driving patterns, expected use for the agency van is approximately 215 miles
        per month based on 22 business days. The table below shows the expected mpg
        return for city driving and actual results for the leased vehicles from November 2006
        through December 2009, for the period that the vehicle was leased by the agency.




                                                                                           42
                                             Expected      Expected
Agency Leased       Date         Date                                       Minimum       Maximum         Average
                                             MPG City      MPG City
   Vehicle         Leased      Disposed                                      MPG           MPG             MPG
                                             Unleaded      Flex Fuel
2001 Chevy              11
                                May-08          20              18            15.67           15.85         15.76
Cavalier
2008 Chevy          May
                               in service       18              14            12.46           18.41         14.82
Impala              2008
2000 Dodge              11      Apr-09          18             n/a            5.18            16.99         11.32
Caravan
2009 Dodge          April
                               in service       17              11             9.84           14.45         12.02
Caravan             2009

            As shown, mpg return varied significantly for the 2000 Dodge Caravan.

        •	 An Administrative staff member, who is also a driver, has responsibility for reporting
           the mileage driven each month to GSA. Fleet costs are based on a monthly fixed
           lease rate, plus fixed mileage rate times the miles driven per month, 19 and 20.5 cents
           per mile for the sedan and van respectively in FY 2009.12 Program management does
           not verify the accuracy of the mileage reported to GSA by the drivers or verify that
           miles reported and billed are within tolerance of expected vehicle use for legitimate
           business needs. Large errors in mileage reporting for one agency vehicle occurred in
           July, August and September 2006 as noted in the following table (Ford Taurus sedan
           tag G11 10857).

                             Ford Reported Miles          Ford Lease Cost             Total Invoiced All
       Billing Period
                                   Driven                   For Month                     Vehicles
   July 2006                        -8,697                   ($ 1,550.91)                  ($ 476.54)
   August 2006                         27                      $ 262.37                    $ 871.20
   September 2006                    9,738                    $ 1,798.80                  $ 2,516.26

            Currently, agency staff uses the telephone to report starting and ending mileage for
            each vehicle to GSA monthly. Data is input using a telephone key pad and the
            method does not allow the employee to visually confirm the mileage details input for
            reasonableness. It is likely that keying errors produced the variances shown above.
            The reporting errors created billing variances that exceeded standard monthly lease
            charges by more than 200 percent. The FEC pays for the services under an Intra-
            Governmental Payment and Collections (IPAC) agreement. Generally, the funds are

  11
    Specific dates vehicles were leased is not known and was not needed for audit testing.

  12
    Fleet lease rates change annually. For FY 2010, the mileage rate decreased to .17 and .185 per mile, and the 

  monthly lease rates decreased from $233 to $224 (sedan) and $215 to $207 (van) per month. The fuel surcharge 

  changed to a flat rate of $14.00 per month per vehicle. 



                                                                                                             43 

       transferred to GSA two to three weeks before the FEC receives an invoice of services.
       Typically, mileage reporting errors are corrected in the next month when a correct
       closing mileage value is entered. However, in the 2006 case, the mileage and vehicle
       costs were not correctly reported until the third month, when the vehicle was returned
       by the FEC to GSA as a vehicle no longer needed by the agency.

   •	 Admin drivers sign out the fleet charge card and provide receipts for purchases to
      Admin staff for recordkeeping. OGC drivers maintain the fleet charge cards assigned
      to the sedan and maintain the receipts for charges. OGC staff does not provide a copy
      of receipts to Admin staff for recordkeeping, and instead OGC maintains their own
      file for the fleet vehicle under their control. Admin management does not obtain and
      review a report of fleet charge card activities from GSA to determine whether all
      charges to the fleet charge cards are reported by the drivers. Further, Admin
      management does not use the information available from the fleet charge report to
      compute mpg return on the vehicles and review for suspicious transactions, such as:
              charges made at fueling stations far from standard locations in downtown DC, 

              short fueling or fueling vehicle when only half empty, 

              purchases for other than fuel, routine maintenance, or car washes, 

              purchases on nights, weekends or other than standard work hours. 


Through the OIG’s discussion with GSA account representatives, agencies have access to all
fleet data through the GSA Drive-Thru on-line reporting system. Agency management can
access data on charge card activity using the “Carry-out” downloadable report features of the
GSA website. GSA transitioned from Voyager Fleet Card Services to Write-Express (WEX)
as of November 1, 2008. The WEX data includes a field showing the mpg return calculated
at each fueling.

Ineffective operating controls increase the likelihood that employee abuse of fleet assets will
not be detected and corrected immediately. The Federal Managers’ Financial Integrity Act
of 1982 (FMFIA) requires the Government Accountability Office (GAO) to issue standards
for internal control in government. According to the Standards for Internal Control in the
Federal Government issued by GAO November 1999:

    •	 Management and employees should establish and maintain an environment throughout
       the organization that sets a positive and supportive attitude toward internal control and
       conscientious management.
    •	 Internal control should provide for an assessment of the risks the agency faces from
       both external and internal sources.
    •	 Internal control activities help ensure that management’s directives are carried out.
       The control activities should be effective and efficient in accomplishing the agency’s
       control objectives.

    •	 Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination. The

                                                                                              44
        documentation should appear in management directives, administrative policies, or
        operating manuals and may be in paper or electronic form. All documentation and
        records should be properly managed and maintained.

There has been frequent change in program management for the Administrative Division, the
business area responsible for managing leased vehicles and the associated fleet charge cards.
Management has not implemented effective internal controls and lacks adequate policies and
procedures. Current management may not be aware of past program weaknesses and the
need to implement a strong control framework to prevent and detect potential abuse in the
future. Without adequate internal controls, the program management may not detect fraud,
waste and abuse of agency fleet charge cards or leased vehicles.

Recommendations
Admin management should implement the following controls to prevent and detect employee
abuse of the fleet vehicles and fleet charge card programs and to ensure accurate vehicle and
gas charge card activities.

4a. 	   Require drivers to document all use of vehicles through trip logs that record driver
        name, trip locations, and miles driven for each use of the vehicles, including OGC.
        Logs should be maintained for each vehicle and periodically reviewed by
        management.

        Management Response
        “Agree with recommendation – Each vehicle will be outfitted with a trip log book to
        record each trip.”

        OIG Comment
        Agency’s planned actions are responsive to the audit issue identified and, when fully
        implemented, should satisfy the intent of the audit recommendation.

4b. 	   Establish an expectation of fleet vehicle use based on agency needs. Review and
        revise the estimate based on changes in standard routes and frequency of courier runs.

        Management Response
        “Disagree with recommendation – It has been determined based upon past history,
        that 2 fulltime vehicles will satisfy the agency needs to transport VIP’s
        (Commissioners, Staff Director, OGC, and IG) and their staff in support of agency
        business needs. This transportation will offset local travel claims (cab expenses,
        metro fares, bus tokens, etc.). This transportation will also offset investigators local
        travel expenses, as well as local travel needs of the OIT. The Administrative Services
        Division will review the usage log books of each vehicle and reassess agency need
        based on actual usage.”

        OIG Comment
        The OIG does not disagree with the agency’s decision to have two full-time
        government vehicles to satisfy agency needs. Instead, the OIG’s recommendation

                                                                                               45
        involves management developing an expectation of what the mileage driven each
        month should be compared to what drivers may report in the logs for each vehicle, in
        order to detect vehicle misuse. The process of establishing an expectation requires
        management to first have an understanding of the actual driving distances for
        standard FEC trips, such as the daily Capital Hill run and twice monthly trips to the
        FEC’s security contractor, and then also the expected number of occurrences per
        month. Then, based on the understanding of the expected number of occurrences and
        established actual driving distances, management can review the vehicle logs and
        determine whether the data reported by the drivers is reasonable and accurate.
        Without an expectation of what should be reported, management will not be able to
        detect abuse or inaccurate reporting by drivers.

4c. 	   Segregate responsibility for monthly mileage reporting to GSA from those
        responsible for driving and maintaining agency vehicles.

        Management Response
        “Agree. The Administrative Services Division management analyst will be
        responsible for reporting monthly mileage to GSA, while the Office Services Branch
        will be primarily responsible for driving and maintaining agency assets.”

        OIG Comment
        Agency’s planned actions are responsive to the audit issue identified and, when fully
        implemented, should satisfy the intent of the audit recommendation.

4d. 	   Use the GSA on-line systems to report mileage each month. This would ensure
        values reported can be viewed and any errors corrected prior to submitting the final
        mileage.

        Management Response
        “Agree. The ASD will take advantage of the on-line GSA systems to report mileage.”

        OIG Comment
        Agency’s planned actions are responsive to the audit issue identified and, when fully
        implemented, should satisfy the intent of the audit recommendation.

4e. 	   Require employees maintain and submit all documentation relating to fleet charge
        card use, including charges for fuel, routine and major maintenance. Review GSA
        activity reports to ensure all documentation relating to charges is provided by staff,
        including OGC.

        Management Response
        “Agree. The ASD will take responsibility to maintain and submit all receipts
        resulting from charges to the fleet charge card use.”




                                                                                                 46
       OIG Comment
       Management’s response reflects agreement on one portion of the recommendation.
       Comparison of charge card receipts to actual GSA activity reports is also necessary to
       ensure all documentation relating to charges is provided by staff, and that fleet charge
       cards have not been misused.

4f.    At least quarterly, access GSA systems, download fleet charge card activity reports,
       and monitor agency fleet activity for abnormal charges and fleet vehicle mpg results.
       Log-on and passwords are provided by GSA and a handbook on system use is also
       available on the GSA website.

       Management Response
       “Agree. ASD will make full use of the GSA charge card system to complete all
       necessary records, and consistent management monitoring of use.”

       OIG Comment
       Agency’s planned actions are responsive to the audit issue identified and, when fully
       implemented, should satisfy the intent of the audit recommendation.

4g.    Research and resolve unexpected or unusual fleet charge transactions, miles driven,
       or mpg results. Admin management should maintain the activity reports, driver logs
       and other records used to monitor program activity as evidence that adequate controls
       are in place and regular supervisory review occurs.

       Management Response
       “See answer above.”

       OIG Comment
       Agency’s planned actions are responsive to the audit issue identified and, when fully
       implemented, should satisfy the intent of the audit recommendation.

5.     Fleet Vehicle Driver Qualification and Verification

The FEC does not have business processes or written guidance in place to ensure employees
with access to fleet vehicles are both qualified and authorized to operate those vehicles, in
accordance with federal regulations. Several employees with access to fleet vehicles do not
have the requirement to possess and maintain a valid license included in their position
descriptions. While most Admin employees with driving responsibilities have position
descriptions defining that “the incumbent must have a valid driver’s license and maintain a
good driving record,” position descriptions for other employees with access to fleet vehicles
lack the necessary licensing requirement. Further, although the driving qualifications may
have been verified when the employees were hired, no evidence of such verification was
provided to the auditors. No subsequent verification that employee driver qualifications have
been maintained was performed by the FEC. Specifically, program management was unable
to locate evidence of driving qualification verification for three employees hired in 2003,
2005, and 2009, respectively, who have access to fleet vehicles.

                                                                                            47
5 CFR§ 930.101-115 “governs agencies in authorizing employees to operate Government-
owned or leased (acquired for other than short term use for which the Government does not
have full control and accountability) motor vehicles for official purposes within the States of
the Union, the District of Columbia, Puerto Rico, and the territories and possessions of the
United States.” The following bullets detail the regulatory requirement to ensure employees
with access to Government owned or leased vehicles are qualified to drive the vehicles and
periodically reviewed to ensure the qualification is maintained. The complete federal
regulation is included as Attachment 2 to this report beginning on page 66. According to the
regulations, agencies must:

      •	 establish an efficient and effective system to identify those federal employees who are
         qualified and authorized to operate Government-owned or -leased motor vehicles
         while on official government business;
      •	 periodically review the competence and physical qualifications of these federal
         employees to operate such vehicles safely;
      •	 ensure medical evaluations of employees who operate leased vehicles at least once
         every four years;
      •	 review each employee's authorization to operate Government-owned or -leased motor
         vehicles at least once every four years;
      •	 ensure applicants for motor vehicle operator positions must meet minimum
         requirements for positions to include:
              possess a safe driving record;
              possess a valid State license;
              except as provided in §930.107, pass a road test; and
              demonstrate that they are medically qualified to operate the appropriate motor
                 vehicle safely.

Based on interviews with Administrative Services staff, FEC program management is
unaware of the federal requirement to verify qualifications of employees who use agency
leased vehicles. Further, the agency lacks policies and procedures to ensure compliance with
the federal regulations. The FEC is not compliant with federal regulations and is exposed to
increased risk of litigation if an employee operating a leased vehicle is involved in an
accident.

Recommendations

5a.      Position descriptions for all employees who currently have access to agency leased
         vehicles should be evaluated and revised to include a clear requirement to possess and
         maintain a valid license to operate the vehicle and that the employee will be subject to
         regular qualification verification.

         Management Response
         “Disagree -- FEC personnel that have a need to operate a fleet vehicle are identified
         on an as needed basis. The requirement to operate a fleet vehicle is a valid state
         operator’s license and need. Not all PD’s can or will be specifically identified as the

                                                                                              48
        only criteria to operate a fleet vehicle. Situations arise that are not previously
        identified in a PD.”

        OIG Comment
        According to the regulation, any employee given access to government owned or
        leased vehicle is subject to qualification verification. We do not feel it is reasonable
        to conduct driver qualification verification at the time an employee requests use of a
        vehicle, because the process requires obtaining information from a state licensing
        authority and may take days to obtain. In order to ensure employee qualification
        reviews are performed at least every four years as described in the regulation,
        management should include the element in the position descriptions and maintain a
        schedule of employees authorized to access agency vehicles, date last verification was
        performed, and the date next verification is due. The OIG recognizes situations arise
        that are not previously identified in a position description. In these cases, FEC must
        adhere to the regulation or provide alternate transportation.

5b. 	   FEC program management should ensure all employees who have access to fleet
        vehicles are currently qualified to operate the vehicles. Management may accomplish
        this in a number of ways. One option would be to require the employees obtain an
        official driving record from the Department of Motor Vehicles from the state in
        which they are licensed and/or the District of Columbia13. Management should
        research and contact various authorities to determine the best approach to ensure full
        verification is performed for all employees with access to fleet vehicles.

        Management Response
        “Disagree with recommendation – FEC operators will comply with existing
        regulations. Qualifications of driver's such as medical conditions and validity of
        driver's licenses will be monitored on a random basis. This monitoring will consist of
        asking driver's if they meet the qualifications and perhaps physical agency check if
        required.”

        OIG Comment
        The management response provided does not ensure compliance with 5 CFR§
        930.101-115, and is therefore unresponsive. The regulation requires management to
        perform verification activity on all employees granted access to drive government
        owned or leased vehicles at specified intervals and also requires employees self report
        physical or legal impairments to operating a motor vehicle. The process should not
        be limited to a verbal request to view an employee’s license, or making a copy of the
        license presented by an employee as proof of driver qualifications. Program
        management is expected to request and receive evidence of driver qualification for
        each employee granted access to FEC leased vehicles by obtaining employee driving
        records from the Department of Motor Vehicles in the state in which the employee is
        licensed. Program management should maintain support that all driver qualification
        verification activities have been performed in accordance with the regulation.
13
  Program management should gain an understanding of licensing requirements and the inter relationship
between the states and the District of Columbia.

                                                                                                         49
5c. 	   FEC program management should design and implement a process to ensure regular
        qualification verification is performed in accordance with the federal regulations and
        that employees report all matters that may impact their driving qualifications.
        Guidance is provided in the GSA Internal Fleet Handbook as on establishing
        qualification verification activities and defining operator requirements.

        Management Response
        “The FEC will comply with existing regulations.”

        OIG Comment
        The management response provided does not indicate whether management agrees to
        implement the recommendation. The OIG continues to believe FEC program
        management should design and implement a process to ensure regular qualification
        verification is performed in accordance with the federal regulations and that
        employees report all matters that may impact their driving qualifications.




                                                                                            50
                                       CONCLUSIONS 

Audit testing shows management should review and consider revising the internal control
system for personal communication devices (PCD), fleet vehicles, and fleet charge cards. The
Standards for Internal Control in the Federal Government issued by GAO (November 1999)
requires FEC management to maintain a positive attitude and culture of internal control,
assess program risk, design internal control activities linked to program directives and
policies, and document program activity and management’s review of the activity. For
FEC’s PCDs, fleet vehicles, and fleet charge cards, management needs to establish,
strengthen and improve these internal control standards.

The strongest internal control for the PCD program would be to assign responsibility and
accountability for overall program management to one individual in a single business area.
This individual should be accountable for researching and evaluating service providers,
assessing employee needs, evaluating PCD usage levels, and properly segregating the
purchase; tracking; distribution; and destruction of PCDs to ensure they are not subject to
fraud, waste or abuse.

Also, the PCD program should be governed by one comprehensive policy for all PCD users.
Program management should revise existing policies and procedures and amend the processes
for requesting devices, documenting business justification, approving requests for devices,
defining personal use standards, and incorporate Internal Revenue Service (IRS) regulations
governing cell phones as a potential taxable fringe benefit to employees.

Management should establish policies and procedures for the use of fleet vehicles and fleet
charge cards. The policies and procedures should contain adequate internal controls to
address the previous occurrences of abuse and reduce the risk for future employee fraud
waste, or abuse. Management should also implement and document business processes that
require FEC authorized drivers to be in compliance with federal regulations. OIG has
provided management with the GSA Internal Fleet Handbook as sample guidance for
establishing qualification verification activities and defining motor vehicle operator
requirements.

The OIG is confident that if management implements the recommendations of this audit, the
agency will incur significant cost savings and the internal controls over PCDs, fleet vehicles,
and fleet charge cards will substantially improve. Management should also take the steps
necessary to ensure these properties are being used for their intended purpose. If all PCD
program recommendations are implemented, the maximum cost savings to the agency is
projected to be $49,784.64 annually14. The projected savings does not account for users who
need bundled plans (i.e. voice feature and data feature) due to FEC duties and other
requirements such as disaster recovery, Continuity of Operations Plan (COOP), and
emergency contacts. Management should fully assess PCD usage levels and employee
business needs to identify and achieve the cost savings to the agency.

14
  Amount includes 57 users with no voice use or only 10 percent or less voice use over the 16 month testing
period.

                                                                                                              51
   Attachment 1                Summary of Audit Findings and Recommendations


                                Summary of Audit Findings and Recommendations and Management’s Response
          Finding                              Recommendation                                  Management Response                                     OIG Comment

                                                                                      “Agree with recommendation:
                                                                                      Commission Bulletin 2001-11A is outdated       Management has agreed to have one
                               1a. Maintain one comprehensive personal                and does not reflect updated technology        comprehensive policy but has not indicated that
                                   communication device policy for all PCD users      and improvements in telecommunications         the revised policy will define who has the
                                   that clearly defines who has the authority to      pricing. This bulletin has been superseded     authority to request PCD devices for other staff in
                                   request PCD devices for other staff in their       by Policy 58-4.4 and Commission Bulletin       their business area. We look forward to
                                   business area.                                     2001-11A will be rescinded. Policy 58-4.4      reviewing the revised policy to ensure it fully
                                                                                      will be updated to include many of the         addresses this recommendation.
                                                                                      recommendations of this audit.”


                                                                                                                                     The OIG agrees with management that the
                                                                                                                                     issuance of the PCDs is at the discretion of the
                                                                                                                                     senior level managers. However, the OIG’s audit
                                                                                      “Disagree with recommendation. The
                                                                                                                                     testing revealed that senior level management is
                                                                                      request for the issuance of a PCD is at the
                               1b. Develop and implement a Personal                                                                  not adequately informed about the PCD program
                                                                                      discretion of the senior level managers,
                                   Communication Device Request Form for                                                             costs and options in order to make an informed
1. Personal Communication                                                             who will maintain the business justification
                                   requesting PCDs that requires an adequate                                                         decision to justify and authorize PCDs.
Device Policy and Procedures                                                          for the personnel under their charge in
                                   business justification for each PCD user and                                                      Therefore, the OIG continues to believe a
Need Improvement                                                                      accordance with Policy 58-4.4, and the
                                   allows for increased flexibility for managers to                                                  standard form documenting the justification at the
                                                                                      requirements for disaster recovery and
                                   select plan options (i.e. voice only or data                                                      senior level, and then forwarded to the PCD
                                                                                      COOP. The method established for
                                   only).                                                                                            program office for PCD issuance, is necessary.
                                                                                      requesting is e-mail, no form will be
                                                                                                                                     The form could also serve to inform managers
                                                                                      established.”
                                                                                                                                     about the PCD costs and options, which could be
                                                                                                                                     a factor in the justification process at the division
                                                                                                                                     level.


                                                                                      “Disagree with recommendation: The
                                                                                      PCD users do not justify their business        Based on the documentation reviewed during the
                                                                                      needs. The senior management team              audit, we feel management would benefit from
                               1c. Require supervisors/managers to re-justify the
                                                                                      determines which key personnel requires        the use of a standard form, which could be sent
                                   business needs of current PCD users via a PCD
                                                                                      the use of a PCD. Policy 58-4.4 will be        and received electronically, to adequately and
                                   request form.
                                                                                      updated to require senior management to        consistently document the annual re-certifications
                                                                                      re-certify the assigned personnel              performed by senior managers.
                                                                                      annually.”


                                                                                                                                                                                   52
                               Summary of Audit Findings and Recommendations and Management’s Response
          Finding                               Recommendation                                Management Response                                  OIG Comment

                                                                                     “Disagree with recommendation: The
                                                                                     PCD users do not justify their business
                                                                                                                                  This recommendation relates to initial request and
                                                                                     needs. The senior management team
                               1d. Issue devices only after adequate justification                                                business justification receipt prior to ITD issuing
                                                                                     determines which key personnel requires
                                   and formal request has been provided and                                                       a device. We recommend ITD issue devices only
                                                                                     the use of a PCD. Policy 58-4.4 will be
                                   approved.                                                                                      after adequate justification and formal request has
                                                                                     updated to require senior management to
                                                                                                                                  been provided and approved.
                                                                                     re-certify the assigned personnel
                                                                                     annually.”


                                                                                     “Disagree with recommendation. No            The OIG continues to believe management
                                                                                     request forms will be required, however      should maintain all request forms to include the
                                                                                     the email request from senior managers       initial justification and annual re-certification.
                               1e. Maintain all request forms for PCD users in the   authorized to make such requests shall be    Further, we recommend the request for and
1. Personal Communication          agency that includes (but not limited to) the     maintained on file, until replaced by the    assignment of a device is linked to physical
Device Policy and Procedures       make, model, issue date, and FEC property bar     annual recertification emails. The           documentation which indicates the device model,
Need Improvement                   code number.                                      assignment of a particular unit to a         telephone number, and the date that the device
                                                                                     particular user will be maintained in the    was issued to the employee. That information
                                                                                     master PCD inventory tracking system.”       can then be used to support and maintain the
                                                                                                                                  master PCD inventory tracking system.


                                                                                     “Agree with recommendation:
                                                                                                                                  Although management agrees with the
                                                                                     Commission Bulletin 2001-11A is outdated
                               1f. Maintain one comprehensive personal                                                            recommendation, their response does not address
                                                                                     and does not reflect updated technology
                                   communication device policy that clearly                                                       the need for a policy that clearly defines what
                                                                                     and improvements in telecommunications
                                   defines what positions and/or offices can                                                      positions and/or offices can receive PCDs without
                                                                                     pricing. This bulletin has been superseded
                                   receive PCDs without a formal request due to                                                   a formal request. We look forward to reviewing
                                                                                     by Policy 58-4.4 Commission Bulletin
                                   the employees’ position and/or required FEC                                                    the revised policy to ensure it fully addresses this
                                                                                     2001-11A will be rescinded. Policy 58-4.4
                                   duties (i.e. “base group”).                                                                    recommendation.
                                                                                     will be updated to include many of the
                                                                                     recommendations of this audit.”




                                                                                                                                                                               53
                               Summary of Audit Findings and Recommendations and Management’s Response
          Finding                               Recommendation                                 Management Response                                  OIG Comment

                                                                                      “Agree in part with recommendation:
                                                                                      Commission Bulletin 2001-11A is outdated
                                                                                      and does not reflect updated technology
                                                                                                                                   Although management agrees with the
                                                                                      and improvements in telecommunications
                                                                                                                                   recommendation, their response does not address
                               1g. Maintain one comprehensive personal                pricing. This bulletin has been superseded
1. Personal Communication                                                                                                          the need for a policy that clearly identifies those
                                   communication device policy that clearly           by Policy 58-4.4 Commission Bulletin
Device Policy and Procedures                                                                                                       in the agency with the authority to approve PCD
                                   identifies those in the agency with authority to   2001-11A will be rescinded. Policy 58-4.4
Need Improvement                                                                                                                   requests. We look forward to reviewing the
                                   approve PCD requests.                              will be updated to include many of the
                                                                                                                                   revised policy to ensure it fully addresses this
                                                                                      recommendations of this audit. The
                                                                                                                                   recommendation.
                                                                                      revised policy will have to be reviewed
                                                                                      after the revision, it is agreed that the
                                                                                      present policy must be revised.”


                                                                                                                                   Agency’s planned actions are responsive to the
                               1h. Document the ITD re-authorization process of       “Agree with recommendation: Will be          audit issue identified and, when fully
                                   PCD users in ITD’s Policy 58-4.4.                  included in the update to Policy 58-4.4.”    implemented, should satisfy the intent of the audit
                                                                                                                                   recommendation.


                                                                                                                                   Agency’s planned actions are responsive to the
                               1i. Identify who has authority to re-authorize PCD     “Agree with recommendation: Will be          audit issue identified and, when fully
                                   users in ITD’s Policy 58-4.4.                      included in the update to Policy58-4.4.”     implemented, should satisfy the intent of the audit
                                                                                                                                   recommendation.




                                                                                                                                                                                54
                               Summary of Audit Findings and Recommendations and Management’s Response
          Finding                              Recommendation                                 Management Response                                   OIG Comment

                                                                                     “Disagree with recommendation: FEC
                                                                                                                                   Although the Commissioner of the IRS has
                                                                                     senior management and Office of General
                                                                                                                                   “requested Congress act to make clear that there
                                                                                     Counsel will review IRS regulations to
                                                                                                                                   will be no tax consequences to employers or
                                                                                     determine if any apply to the FEC policies
                                                                                                                                   employees for personal use of work-related
                                                                                     regarding PCD use within the agency, and
                               1j. FEC should adhere to the IRS regulations and                                                    devices such as cell phones provided by
                                                                                     adjust our current policies to reflect
                                   revise program policies to reflect those                                                        employers,” the law is still in effect and
                                                                                     current regulations. However, as
                                   regulations.                                                                                    management should take reasonable steps to
                                                                                     discussed at the exit meeting, FEC
                                                                                                                                   adhere to current IRS requirements. These
                                                                                     management will hold in abeyance until
                                                                                                                                   additional procedures and controls would also
                                                                                     further guidance issued by Commissioner
                                                                                                                                   help ensure the program expenses were related to
                                                                                     of the IRS, in accordance with his
                                                                                                                                   business activity rather than personal use.
                                                                                     statement dated 6/16/09”.


                                                                                     “Neither agree nor disagree here is what
                                                                                                                                   Agency’s planned actions are responsive to the
                                                                                     we will do: All policies and directives are
1. Personal Communication      1k. Provide the policies and procedures for the use                                                 audit issue identified and, when fully
                                                                                     maintained in a shared folder and is
Device Policy and Procedures       of PCDs to all PCD users when issuing a                                                         implemented, should satisfy the intent of the audit
                                                                                     accessible to all FEC personnel. All users
Need Improvement                   device.                                                                                         recommendation.
                                                                                     will be directed to that folder so they may
                                                                                     review applicable directives.”


                                                                                     “Disagree with recommendation. ITD has
                                                                                     in the past allowed too many devices to be
                                                                                     at the ready, however there is a real need
                                                                                     to maintain a minimum number of devices       The OIG continues to believe ITD should
                               2a. All unassigned devices should be suspended or
                                                                                     at the ready for immediate use in the event   eliminate, or minimize to the maximum extent
                                   service should be terminated if the device can
                                                                                     of a catastrophic or emergency situation      possible, the number of unassigned active
                                   not be immediately transferred to another user
2. Personal Communication                                                            and the non availability of personnel that    devices. It is important to note the FEC’s recent
                                   (no active spares kept in ITD). ITD retains a
Device Program Monitoring                                                            has the authorization to activate a device.   roll-out of portable netbook computers should
                                   minimum of 10 inactive spare devices and a
                                                                                     ITD will keep a minimum of three devices      help alleviate the need to maintain unnecessary
                                   spare SIM. If required, a device could be
                                                                                     activated for use by any personnel            unassigned active devices.
                                   activated within 24 hours.
                                                                                     designated by proper authority at a
                                                                                     moments notice. This policy will be
                                                                                     incorporated in the updated FEC PCD
                                                                                     Policy.”



                                                                                                                                                                               55
                            Summary of Audit Findings and Recommendations and Management’s Response
         Finding                             Recommendation                                   Management Response                                      OIG Comment

                                                                                                                                     Agency’s planned actions are responsive to the
                            2b. Devices assigned to employees based on              “Agreed. Project management personnel
                                                                                                                                     audit issue identified and, when fully
                                temporary roles should be recovered when the        will more closely monitor PDC’s that are
                                                                                                                                     implemented, should satisfy the intent of the audit
                                employee is no longer in the temporary              no longer in use.”
                                                                                                                                     recommendation.
                                position.

                                                                                    “Disagree with recommendation. It has
                                                                                    been determined by senior FEC
                                                                                    management that in order to properly
                                                                                    conduct continuous business, while both in
                                                                                    the local FEC geographical area, or on
                                                                                    travel in the conduct of official or non-        The OIG recognizes management’s intention that
                                                                                    official business, or in the event of a          some employees, no matter the level of use
                                                                                    disaster, or emergency that certain key          exhibited, will be issued a device based on
                                                                                    personnel are required to be in                  business continuity need. We also recognize that
                                                                                    communication with FEC officials. These          management may wish to reevaluate the need for
                                                                                    key personnel will be identified by the          some employees based on past use. The OIG
                            2c. Review the audit testing results for users with     authorizing senior level FEC managers            believes that a device that is powered off, not
                                very limited or no usage and determine if an        without question from ITD program                carried with employees at all times, or is not
2. Personal Communication       actual business need exists to retain the device.   administrators. Policy 58-4.4 will be            serviceable, will never meet FEC management’s
Device Program Monitoring       If a valid need exists, ensure the employee still   updated to reflect the annual certification      intended business need and is a waste of
                                has the device, it is serviceable, and the          by senior level management will be used to       government funds. We recommend management
                                employee understands how to use the device.         determine that the persons assigned a            review the historical user activity reports for users
                                                                                    PCD, are to continue to be authorized to         with very limited or no usage and determine if an
                                                                                    use FEC PCD. The employees issued                actual business need exists to retain the device. If
                                                                                    PCD’s will be issued them in accordance          a valid need exists, ensure the employee still has
                                                                                    with Policy 58-4.4, it is up to the individual   the device, it is serviceable, and the employee
                                                                                    managers to ensure that the employees            understands how to use the device.
                                                                                    understand how to use the device, ITD
                                                                                    training personnel are available to assist
                                                                                    the managers in this endeavor. The
                                                                                    authorization, use, care, and individual
                                                                                    accountability for the devices is not the
                                                                                    responsibility of the ITD.”




                                                                                                                                                                                  56
                            Summary of Audit Findings and Recommendations and Management’s Response
         Finding                             Recommendation                                 Management Response                                    OIG Comment

                                                                                   “Disagree with the recommendation. The
                                                                                   FEC has one and only one plan based
                                                                                   upon the desires from the senior level
                                                                                   management, that all personnel issued a        The OIG understands that management has one
                                                                                   PCD have the capability for voice, data,       AT&T service plan, however; this plan can be
                                                                                   and text communication. In order to            adjusted to add or remove features to best fit the
                                                                                   accommodate these criteria, the ITD            agency’s needs and also produce cost savings to
                                                                                   assisted the contracting officer in plan and   the agency. The FEC currently has one PCD user
                            2d. Document the requestor’s expected need for a
                                                                                   device selection. It has been determined by    whose plan has been adjusted to a data only plan.
                                PCD (i.e. e-mail only, phone communication,
                                                                                   FEC senior management that in order to         The OIG’s Employee Mobile Survey combined
                                e-mail and phone) through a request form to
                                                                                   be able to respond to any catastrophic or      with the OIG’s audit testing indicates that the
                                determine which plan feature(s) best fit the
                                                                                   emergency situation, that all FEC PCD          agency pays monthly service costs for several
                                requestor’s business need (i.e. data only plan,
                                                                                   user’s are able to access or be accessed       users who do not use their voice feature. We
                                voice only, or bundled plan).
                                                                                   through voice, data transmission or            recommend that management provide
                                                                                   texting. This approach to emergency            managers/supervisors with the option to assign
                                                                                   preparedness as well as the efficient          their staff with the plan features that best fit the
                                                                                   conduct of daily business transactions has     business needs of the agency.
                                                                                   been deemed by senior FEC management
2. Personal Communication                                                          to be the most effective use of the agency
Device Program Monitoring                                                          budget for this type of communication
                                                                                   system.”


                            2e. Notify managers during the reauthorization
                                                                                                                                  The OIG understands that management has one
                                process of the ability to revise PCD plan
                                                                                                                                  AT&T service plan, however; this plan can be
                                options in the future to appropriately support
                                                                                   “See response above. The FEC has one           adjusted to add or remove features to best fit the
                                the PCD user’s business need (i.e. if the user
                                                                                   plan for all users.”                           agency’s needs and also produce cost savings to
                                requests a data and voice plan but only uses
                                                                                                                                  the agency.
                                data, their standard service can be reduced to a
                                data only plan).

                                                                                   “Agree. User information will be kept up
                            2f. PCD user information should be kept up to date                                                    Agency’s planned actions are responsive to the
                                                                                   to date in a timelier manner to include the
                                and adjusted in a timely manner on the ITD                                                        audit issue identified and, when fully
                                                                                   AT&T website. The Policy 58-4.4 will be
                                master Blackberry listing and the AT&T                                                            implemented, should satisfy the intent of the audit
                                                                                   updated to reflect the monitoring of the
                                Premier website for employee separations and                                                      recommendation.
                                                                                   information.”
                                new assignment of devices.


                                                                                                                                                                               57
                            Summary of Audit Findings and Recommendations and Management’s Response
         Finding                             Recommendation                                   Management Response                                     OIG Comment

                            2g. Management should educate PCD users of all
                                                                                                                                     Although management agrees, it is important that
                                features that incur additional cost to the agency,   “Agreed. Since the beginning of this fiscal
                                                                                                                                     management ensure the users are informed of
                                such as:                                             year (FY10) the FEC has gone to an all
                                                                                                                                     plan features that incur additional charges, such
                                 roaming charges that result when                   inclusive billing that allows each user 200
                                                                                                                                     as: roaming charges that result when employees
                                    employees place calls outside AT&T               minutes of voice, pooled to avoid overage
                                                                                                                                     place calls outside AT&T service areas; directory
                                    service areas;                                   charges, unlimited data and unlimited text.
                                                                                                                                     assistance; and voice use over the pooled plan
                                 texting;                                           The users will be kept abreast of plan
                                                                                                                                     limits.
                                 directory assistance; and                          changes.”
                                 voice use over the pooled plan limits.

                                                                                     “Agree with recommendation. When an
                            2h. Provide the international add-on plan to the
                                                                                     authorized user is performing international     ITD should ensure that the beginning and ending
                                standard monthly service for users who
                                                                                     travel, an e-mail request is submitted to the   dates of travel are included in every PCD users’
                                frequently travel internationally for business.
                                                                                     Blackberry administrator with the period        e-mail requests to activate international add-on
                                Require written request for the international
2. Personal Communication                                                            of international travel. The administrator      plans. Also, the Management Assistant who is
                                add-on plan for PCD users who do not
Device Program Monitoring                                                            then activates international add-on plan        responsible for activating the international add-on
                                frequently travel internationally for business.
                                                                                     for the period requested. When the traveler     plan for users should establish a method that will
                                This request should include their beginning and
                                                                                     returns, an email is sent to terminate the      ensure timely termination of the international
                                ending date of travel. Based on the
                                                                                     international add-on plan. The email            add-on plan service when users return from
                                information, the international service option
                                                                                     communication is the only communication         travel.
                                should be promptly activated and terminated.
                                                                                     required, no form will be necessary.”

                                                                                                                                     Management’s response indicates the assessment
                                                                                                                                     is performed at the contract renewal by the
                                                                                                                                     contracting officer. The OIG continues to believe
                            2i. ITD’s Management Assistant should annually
                                                                                     “Agreed. This action is performed by the        the ITD Management Assistant should monitor
                                monitor monthly PCD usage to asses if the
                                                                                     contracting officer at the time of contract     monthly PCD usage and annually assess if the
                                current plan should be adjusted to appropriately
                                                                                     renewal.”                                       current plan should be adjusted to appropriately
                                meet user needs.
                                                                                                                                     meet agency needs. This person reviews the
                                                                                                                                     monthly invoices and is most familiar with the
                                                                                                                                     plan features and billing details.




                                                                                                                                                                                 58
                                Summary of Audit Findings and Recommendations and Management’s Response
           Finding                             Recommendation                                Management Response                                  OIG Comment

                                                                                                                                 The OIG continues to believe it is in the best
                                                                                                                                 interest of the agency for the program area (point
                                                                                                                                 of contact), working with the Procurement Office,
                                                                                                                                 to conduct market research and obtain additional
                                                                                                                                 quotes prior to awarding another blanket purchase
                                                                                                                                 agreement (BPA) contract for personal
                                                                                                                                 communication devices in FY 2011, the year the
                                                                                                                                 current contract is scheduled to expire.

                                                                                                                                 According to the FEC’s Procurement Office
                                                                                                                                 policies and procedures, “it is everyone’s
                               2j. Prior to renewing PCD services or switching
                                                                                                                                 responsibility to ensure that market research is
                                   service plans, the Contracting Office, in
                                                                                                                                 performed for all actions that require the
                                   consultation with the PCD Program Office,        “This action is the responsibility of the
                                                                                                                                 expenditure of appropriated funds.” According
                                   should conduct and document analysis of          contracting officer and is conducted in
                                                                                                                                 to the FEC Procurement Procedures 10, “the
                                   service plans offered by the current provider    accordance with the requirements of the
                                                                                                                                 following BPA Review procedures will be
2. Personal Communication          and other potential vendors on the GSA           FAR. The contracting officer routinely
                                                                                                                                 coordinated via the Director of Procurement to
Device Program Monitoring          schedule to achieve best value for the agency.   takes this action on each and every
                                                                                                                                 the appropriate POCs/COTRs15 through the CFO
                                   Further, the Contracting Office should discuss   contract action he authorizes, as required
                                                                                                                                 Internal Control Program on an annual basis.
                                   actual plan details and agency use with PCD      by law.”
                                                                                                                                 The contracting officer that entered into a BPA
                                   program office and ensure any negotiated
                                                                                                                                 shall-
                                   service options, such as free texting, are
                                                                                                                                 A. Ensure each BPA is reviewed annually and, if
                                   included in quotes from potential vendors.
                                                                                                                                 necessary updated any pertinent contract
                                                                                                                                 information at that time; and
                                                                                                                                 B. If the BPA is under a GSA schedule ensure that
                                                                                                                                 the most recent GSA Schedule for pricing has
                                                                                                                                 been distributed to the ordering officials and
                                                                                                                                 inserted in the file.
                                                                                                                                 C. Maintain awareness of changes in market
                                                                                                                                 conditions, sources of supply, and other pertinent
                                                                                                                                 factors that may warrant making new
                                                                                                                                 arrangements with different suppliers or
                                                                                                                                 modifying existing arrangements.




  15
       Point of Contact (POC) and Contracting Officer’s Technical Representative (COTR)
                                                                                                                                                                            59
                           Summary of Audit Findings and Recommendations and Management’s Response
         Finding                           Recommendation                                Management Response                                   OIG Comment

                                                                                “Since Commission Bulletin 2006-04
                                                                                address mainly cell phone and pagers, and
                                                                                                                              Management’s response does not indicate
                           3a. Adhere to Commission Bulletin 2006-04 and        modern PCD’s it shall be rescinded and
                                                                                                                              whether they agree fully with the
                               track personal communication devices in the      replaced with Policy58-4.4. Policy58-4.4 is
                                                                                                                              recommendation or provide explanation of their
                               Fixed Asset System and apply barcodes to all     in processed of being revised to include
                                                                                                                              disagreement.
                               devices.                                         some of the recommendations contained in
                                                                                this audit, and to provide additional
                                                                                clarity.”


                           3b. Document and enforce the policies and            “Policy 58-4.4 is in processed of being       Management’s response does not indicate
                               procedures for issuing a new or upgraded         revised to include some of the                whether they agree fully with the
                               device to an FEC PCD user, including return of   recommendations contained in this audit,      recommendation or provide explanation of their
                               previously issued device(s).                     and to provide additional clarity.”           disagreement.
3. Tracking and Managing
Personal Communication
Devices                    3c. ITD staff coordinate with GSA and implement
                               processes and procedures to ensure:
                                devices no longer needed are made              “Policy 58-4.4 shall be updated to reflect    Agency’s planned actions are responsive to the
                                   available to other government agencies or    that all devices that are broken, obsolete,   audit issue identified and, when fully
                                   non-profit organizations; and                or have reached the end of the FEC service    implemented, should satisfy the intent of the audit
                                obsolete or broken devices are disposed in     life shall be turned into GSA.”               recommendation.
                                   a manner that is not detrimental to public
                                   health.



                           3d. ITD should implement a form and process,                                                       Management’s response does not indicate
                               such as the NIST Sample Sanitization             “Preparation for disposal of all PCD’s        whether they agree fully with the
                               Validation Form, to record sanitization          shall be in accordance with existing          recommendation or provide explanation of their
                               (wiping) of devices, disposal and/or             provisions of Policy 58.”                     disagreement.
                               destruction, as appropriate.




                                                                                                                                                                          60
                              Summary of Audit Findings and Recommendations and Management’s Response
           Finding                            Recommendation                                  Management Response                                  OIG Comment

                                                                                                                                  During the period of audit, the OIG identified
                              3e. Segregate the following program functions                                                       weak internal controls regarding the proper
                                  among three or more ITD staff:                    “ITD currently has three separate IT staff    segregation of duties for managing the PCDs.
3. Tracking and Managing           Purchasing/ordering and recording assets;       personnel involved in separate duties, one    ITD’s Policy 58-4.4 should be updated to identify
Personal Communication             Authorization for purchases, including          to authorize purchase, one for the            the ITD personnel who will be responsible for
Devices                              devices received free under upgrade            recording of devices, and one to distribute   obtaining PCDs online with AT&T; authorizing
                                     promotion;                                     the devices. Policy 58.4-4 will be updated    purchases, to include free devices under upgrade
                                   Receipt, storage, and distributing of assets;   to reflect the staff duties.”                 promotions; receiving, storing, and distributing
                                     and                                                                                          PCDs; and the disposal and destruction of surplus
                                   Destruction or disposal of surplus PCDs.                                                      PCDs.

4. Fleet Vehicles and Fleet
Charge Card Program           4a. Require drivers to document all use of vehicles
Controls                          through trip logs that record driver name, trip                                                 Agency’s planned actions are responsive to the
                                                                                    “Agree with recommendation – Each
                                  locations, and miles driven for each use of the                                                 audit issue identified and, when fully
                                                                                    vehicle will be outfitted with a trip log
                                  vehicles, including OGC. Logs should be                                                         implemented, should satisfy the intent of the audit
                                                                                    book to record each trip.”
                                  maintained for each vehicle and periodically                                                    recommendation.
                                  reviewed by management.




                                                                                                                                                                              61
                              Summary of Audit Findings and Recommendations and Management’s Response
           Finding                            Recommendation                                 Management Response                                     OIG Comment

                                                                                                                                    The OIG does not disagree with the agency’s
                                                                                                                                    decision to have two full-time government
                                                                                                                                    vehicles to satisfy agency needs. Instead, the
                                                                                    “Disagree with recommendation – It has          OIG’s recommendation involves management
                                                                                    been determined based upon past history,        developing an expectation of what the mileage
                                                                                    that 2 fulltime vehicles will satisfy the       driven each month should be compared to what
                                                                                    agency needs to transport VIP’s                 drivers may report in the logs for each vehicle, in
                                                                                    (Commissioners, Staff Director, OGC, and        order to detect vehicle misuse. The process of
                                                                                    IG) and their staff in support of agency        establishing an expectation requires management
                              4b. Establish an expectation of fleet vehicle use     business needs. This transportation will        to first have an understanding of the actual
                                  based on agency needs. Review and revise the      offset local travel claims (cab expenses,       driving distances for standard FEC trips, such as
                                  estimate based on changes in standard routes      metro fares, bus tokens, etc.). This            the daily Capital Hill run and twice monthly trips
                                  and frequency of courier runs.                    transportation will also offset investigators   to the FEC’s security contractor, and then also the
                                                                                    local travel expenses, as well as local         expected number of occurrences per month.
                                                                                    travel needs of the OIT. The                    Then, based on the understanding of the expected
4. Fleet Vehicles and Fleet                                                         Administrative Services Division will           number of occurrences and established actual
Charge Card Program                                                                 review the usage log books of each vehicle      driving distances, management can review the
Controls                                                                            and reassess agency need based on actual        vehicle logs and determine whether the data
                                                                                    usage.”                                         reported by the drivers is reasonable and accurate.
                                                                                                                                    Without an expectation of what should be
                                                                                                                                    reported, management will not be able to detect
                                                                                                                                    abuse or inaccurate reporting by drivers.


                                                                                    “Agree. The Administrative Services
                                                                                    Division management analyst will be             Agency’s planned actions are responsive to the
                              4c. Segregate responsibility for monthly mileage      responsible for reporting monthly mileage       audit issue identified and, when fully
                                  reporting to GSA from those responsible for       to GSA, while the Office Services Branch        implemented, should satisfy the intent of the audit
                                  driving and maintaining agency vehicles.          will be primarily responsible for driving       recommendation.
                                                                                    and maintaining agency assets.”


                              4d. Use the GSA on-line systems to report mileage                                                     Agency’s planned actions are responsive to the
                                                                                    “Agree. The ASD will take advantage of
                                  each month. This would ensure values reported                                                     audit issue identified and, when fully
                                                                                    the on-line GSA systems to report
                                  can be viewed and any errors corrected prior to                                                   implemented, should satisfy the intent of the audit
                                                                                    mileage.”
                                  submitting the final mileage.                                                                     recommendation.



                                                                                                                                                                                62
                              Summary of Audit Findings and Recommendations and Management’s Response
           Finding                            Recommendation                                  Management Response                                   OIG Comment
                                                                                                                                   Management’s response reflects agreement on
                              4e. Require employees maintain and submit all
                                                                                                                                   one portion of the recommendation. Comparison
                                  documentation relating to fleet charge card use,
                                                                                     “Agree. The ASD will take responsibility to   of charge card receipts to actual GSA activity
                                  including charges for fuel, routine and major
                                                                                     maintain and submit all receipts resulting    reports is also necessary to ensure all
                                  maintenance. Review GSA activity reports to
                                                                                     from charges to the fleet charge card use.”   documentation relating to charges is provided by
                                  ensure all documentation relating to charges is
                                                                                                                                   staff, and that fleet charge cards have not been
                                  provided by staff, including OGC.
                                                                                                                                   misused.

                              4f. At least quarterly, access GSA systems,
4. Fleet Vehicles and Fleet       download fleet charge card activity reports, and
                                                                                     Agree. ASD will make full use of the GSA      Agency’s planned actions are responsive to the
Charge Card Program               monitor agency fleet activity for abnormal
                                                                                     charge card system to complete all            audit issue identified and, when fully
Controls                          charges and fleet vehicle mpg results. Log-on
                                                                                     necessary records, and consistent             implemented, should satisfy the intent of the audit
                                  and passwords are provided by GSA and a
                                                                                     management monitoring of use.”                recommendation.
                                  handbook on system use is also available on the
                                  GSA website.


                              4g. Research and resolve unexpected or unusual
                                  fleet charge transactions, miles driven, or mpg
                                                                                                                                   Agency’s planned actions are responsive to the
                                  results. Admin management should maintain
                                                                                                                                   audit issue identified and, when fully
                                  the activity reports, driver logs and other        “See answer above.”
                                                                                                                                   implemented, should satisfy the intent of the audit
                                  records used to monitor program activity as
                                                                                                                                   recommendation.
                                  evidence that adequate controls are in place and
                                  regular supervisory review occurs.




                                                                                                                                                                               63
                          Summary of Audit Findings and Recommendations and Management’s Response
           Finding                         Recommendation                                   Management Response                                   OIG Comment

                                                                                                                                 According to the regulation, any employees given
                                                                                                                                 access to government owned or leased vehicles
                                                                                                                                 are subject to qualification verification. We do
                                                                                                                                 not feel it is reasonable to conduct driver
                                                                                                                                 qualification verification at the time an employee
                                                                                  “Disagree -- FEC personnel that have a         requests use of a vehicle, because the process
                          5a. Position descriptions for all employees who         need to operate a fleet vehicle are            requires obtaining information from a state
5. Fleet Vehicle Driver       currently have access to agency leased vehicles     identified on an as needed basis. The          licensing authority and may take days to obtain.
Qualification and             should be evaluated and revised to include a        requirement to operate a fleet vehicle is a    In order to ensure employee qualification reviews
Verification                  clear requirement to possess and maintain a         valid state operator’s license and need.       are performed at least every four years as
                              valid license to operate the vehicle and that the   Not all PD’s can or will be specifically       described in the regulation, management should
                              employee will be subject to regular                 identified as the only criteria to operate a   include the element in the position descriptions
                              qualification verification.                         fleet vehicle. Situations arise that are not   and maintain a schedule of employees authorized
                                                                                  previously identified in a PD.”                to access agency vehicles, date last verification
                                                                                                                                 was performed, and the date next verification is
                                                                                                                                 due. The OIG recognizes situations arise that are
                                                                                                                                 not previously identified in a position description.
                                                                                                                                 In these cases, FEC must adhere to the regulation
                                                                                                                                 or provide alternate transportation.




                                                                                                                                                                              64
                          Summary of Audit Findings and Recommendations and Management’s Response
           Finding                        Recommendation                                  Management Response                                    OIG Comment

                                                                                                                                The management response provided does not
                                                                                                                                ensure compliance with 5 CFR§ 930.101-115,
                                                                                                                                and is therefore unresponsive. The regulation
                                                                                                                                requires management to perform verification
                                                                                                                                activity on all employees granted access to drive
                          5b. FEC program management should ensure all
                                                                                                                                government owned or leased vehicles at specified
                              employees who have access to fleet vehicles
                                                                                                                                intervals and also requires employees self report
                              are currently qualified to operate the vehicles.   “Disagree with recommendation – FEC
                                                                                                                                physical or legal impairments to operating a
                              Management may accomplish this in a number         operators will comply with existing
                                                                                                                                motor vehicle. The process should not be limited
                              of ways. One option would be to require the        regulations. Qualifications of driver's such
                                                                                                                                to a verbal request to view an employee’s license,
                              employees obtain an official driving record        as medical conditions and validity of
                                                                                                                                or making a copy of the license presented by an
                              from the Department of Motor Vehicles from         driver's licenses will be monitored on a
                                                                                                                                employee as proof of driver qualifications.
                              the state in which they are licensed and/or the    random basis. This monitoring will consist
                                                                                                                                Program management is expected to request and
                              District of Columbia. Management should            of asking driver's if they meet the
                                                                                                                                receive evidence of driver qualification for each
5. Fleet Vehicle Driver       research and contact various authorities to        qualifications and perhaps physical agency
                                                                                                                                employee granted access to FEC leased vehicles
Qualification and             determine the best approach to ensure full         check if required.”
                                                                                                                                by obtaining employee driving records from the
Verification                  verification is performed for all employees with
                                                                                                                                Department of Motor Vehicles in the state in
                              access to fleet vehicles.
                                                                                                                                which the employee is licensed. Program
                                                                                                                                management should maintain support that all
                                                                                                                                driver qualification verification activities have
                                                                                                                                been performed in accordance with the
                                                                                                                                regulation.


                          5c. FEC program management should design and                                                          The management response provided does not
                              implement a process to ensure regular                                                             indicate whether management agrees to
                              qualification verification is performed in                                                        implement the recommendation. The OIG
                              accordance with the federal regulations and that                                                  continues to believe FEC program management
                                                                                 “The FEC will comply with existing
                              employees report all matters that may impact                                                      should design and implement a process to ensure
                                                                                 regulations.”
                              their driving qualifications. Guidance is                                                         regular qualification verification is performed in
                              provided in the GSA Internal Fleet Handbook                                                       accordance with the federal regulations and that
                              as on establishing qualification verification                                                     employees report all matters that may impact
                              activities and defining operator requirements.                                                    their driving qualifications.




                                                                                                                                                                            65
Attachment 2                5 CFR§ 930 Subpart A - Motor Vehicle Operators



                            Title 5: Administrative Personnel


PART 930—PROGRAMS FOR SPECIFIC POSITIONS AND EXAMINATIONS (MISCELLANEOUS)

Subpart A —Motor Vehicle Operators

Authority: 5 U.S.C. 3301, 3320, 7301; 40 U.S.C. 491; E.O. 10577, 3 CFR, 1954–1958 Comp., p.
218; E.O. 11222, 3 CFR, 1964–1965 Comp., p. 306. (Separate authority is listed under §930.107).

Source: 50 FR 34669, Aug. 27, 1985, unless otherwise noted.

§ 930.101 Purpose.

This subpart governs agencies in authorizing employees to operate Government-owned or -leased (acquired for
other than short term use for which the Government does not have full control and accountability) motor vehicles
for official purposes within the States of the Union, the District of Columbia, Puerto Rico, and the territories and
possessions of the United States.

§ 930.102 Definitions.

In this subpart:

Agency means a department, independent establishment, or other unit of the executive branch of the Federal
Government, including a wholly owned Government corporation, in the States of the Union, the District of
Columbia, Puerto Rico, and the territories and possessions of the United States.

Employee means an employee of an agency in either the competitive or excepted service or an enrollee of the
Job Corps established by section 102 of the Economic Opportunity Act of 1964 (42 U.S.C. 2712).

Identification card means the United States Government Motor Vehicle Operator's Identification Card, Optional
Form 346, or an agency-issued identification card that names the types of Government-owned or -leased
vehicles the holder is authorized to operate.

Identification document means an official identification form issued by an agency that properly identifies the
individual as a Federal employee of the agency.

Incidental operator means an employee, other than one occupying a position officially classified as a motor
vehicle operator, who is required to operate a Government-owned or -leased motor vehicle to properly carry out
his or her assigned duties.

Motor vehicle means a vehicle designed and operated principally for highway transportation of property or
passengers, but does not include a vehicle (a) designed or used for military field training, combat, or tactical
purposes; (b) used principally within the confines of a regularly established military post, camp, or depot; or (c)
regularly used by an agency in the performance of investigative, law enforcement, or intelligence duties if the
head of the agency determines that exclusive control of the vehicle is essential to the effective performance of
those duties.

Operator means an employee who is regularly required to operate Government-owned or -leased motor vehicles
and is occupying a position officially classified as motor vehicle operator.

Road test means OPM's Test No. 544 or similar road tests developed by Federal agencies to evaluate the
competency of prospective operators.



                                                                                                                  66
State license means a valid driver's license that would be required for the operation of similar vehicles for other
than official Government business by the States, District of Columbia, Puerto Rico, or territory or possession of
the United States in which the employee is domiciled or principally employed.

§ 930.103 Coverage.

This subpart governs agencies in authorizing their employees to operate Government-owned or -leased motor
vehicles for official purposes within the States of the Union, the District of Columbia, Puerto Rico, and the
territories or possessions of the United States and establishes minimum procedures to ensure the safe and
efficient operation of such vehicles.

§ 930.104 Objectives.

This subpart requires that agencies (a) establish an efficient and effective system to identify those Federal
employees who are qualified and authorized to operate Government-owned or -leased motor vehicles while on
official Government business; and (b) periodically review the competence and physical qualifications of these
Federal employees to operate such vehicles safely.

§ 930.105 Minimum requirements for competitive and excepted service positions.

(a) An agency may fill motor vehicle operator positions in the competitive or excepted services by any of the
methods normally authorized for filling positions. Applicants for motor vehicle operator positions and incidental
operators must meet the following requirements for these positions:

(1) Possess a safe driving record;

(2) Possess a valid State license;

(3) Except as provided in §930.107, pass a road test; and

(4) Demonstrate that they are medically qualified to operate the appropriate motor vehicle safely in accordance
with the standards and procedures established in this part.

(b) Agencies may establish additional requirements to assure that the objectives of this subpart are met.

[50 FR 34669, Aug. 27, 1985, as amended at 60 FR 3067, Jan. 13, 1995]

§ 930.106 Details in the competitive service.

An agency may detail an employee to an operator position in the competitive service for 30 days or less when
the employee possesses a State license. For details exceeding 30 days, the employee must meet all the
requirements of §930.105 and any applicable OPM and agency regulations governing such details.

[60 FR 3067, Jan. 13, 1995]

§ 930.107 Waiver of road test.

Under the following conditions, OPM or an agency head or his or her designated representative may waive the
road test:

(a) OPM waives the road test requirement for operators of vehicles of one ton load capacity or less who possess
a current driver's license from one of the 50 States, District of Columbia, or Puerto Rico, where the employee is
domiciled or principally employed, except for operators of buses and vehicles used for: (1) Transportation of
dangerous materials; (2) law enforcement; or (3) emergency services.



                                                                                                                    67
(b) OPM waives the road test for operators, and agencies may waive the road test for incidental operators of any
class of vehicle, who possess a current driver's license for the specific type of vehicle to be operated from one of
the 50 States, District of Columbia, or Puerto Rico, where the employee is domiciled or principally employed.

(c) An agency head may waive the road test for operators and incidental operators not covered by paragraphs
(a) and (b) of this section, but only when in his or her opinion it is impractical to apply it, and then only for an
employee whose competence as a driver has been established by his or her past driving record.

(5 U.S.C. 1104; Pub. L. 95–454, sec. 3(5))

§ 930.108 Periodic medical evaluation.

At least once every 4 years, each agency will ensure that employees who operate Government-owned or leased
vehicles are medically able to do so without undue risk to themselves or others. When there is a question about
an employee's ability to operate a motor vehicle safely, the employee may be referred for a medical examination
in accordance with the provisions of part 339 of this chapter.

[60 FR 3067, Jan. 13, 1995]

§ 930.109 Periodic review and renewal of authorization.

(a) At least once every 4 years, each agency will review each employee's authorization to operate Government-
owned or -leased motor vehicles.

(b) An agency may renew the employee's authorization only after the appropriate agency official has determined
that the employee is medically qualified and continues to demonstrate competence to operate the type of motor
vehicle to which assigned based on a continued safe driving record.

[50 FR 34669, Aug. 27, 1985, as amended at 60 FR 3067, Jan. 13, 1995]

§ 930.110 Identification of authorized operators and incidental operators.

Agencies must have procedures to identify employees who are authorized to operate Government-owned or -
leased motor vehicles. Such procedures must provide for adequate control of access to vehicles and assure that
the other requirements of this subpart are met.

[50 FR 34669, Aug. 27, 1985, as amended at 66 FR 66712, Dec. 27, 2001]

§ 930.111 State license in possession.

An operator or incidental operator will have a State license in his or her possession at all times while driving a
Government-owned or -leased motor vehicle on a public highway.

§ 930.112 Identification card or document in possession.

The operator or incidental operator will have a valid agency identification card or document (e.g., building pass or
credential) in his or her possession at all times while driving a Government-owned or -leased motor vehicle.

§ 930.113 Corrective action.

An agency will take adverse, disciplinary, or other appropriate action against an operator or an incidental
operator in accordance with applicable laws and regulations. Agency orders and directives will include the
following reasons among those constituting sufficient cause for such action against an operator or an incidental
operator:



                                                                                                                       68
(a) The employee is convicted of operating under the intoxicating influence of alcohol, narcotics, or pathogenic
drugs.

(b) The employee is convicted of leaving the scene of an accident without making his or her identity known.

(c) The employee is not qualified to operate a Government-owned or -leased vehicle safely because of a
physical or medical condition. In making such a determination, agencies should consult a Federal medical officer
or other medical authority as appropriate.

(d) The employee's State license is revoked.

(e) The employee's State license is suspended. However, the agency may continue the employee in his or her
position for operation of Government-owned or -leased motor vehicles on other than public highways for not to
exceed 45 days from the date of suspension of the State license.

§ 930.114 Reports required.

An agency will submit to OPM, on request (a) a copy of agency orders and directives issued in compliance with
this subpart; and (b) such other reports as OPM may require for adequate administration and evaluation of the
motor vehicle operator program.

§ 930.115 Requests for waiver of requirements.

Agencies may request authority from OPM to waive requirements in this subpart. OPM may grant exceptions or
waivers when it finds these waivers or exceptions are in the interest of good administration and meet the
objectives of this program.

[50 FR 34669, Aug. 27, 1985, as amended at 66 FR 66712, Dec. 27, 2001]




                                                                                                               69
     CONTACTING THE OFFICE OF INSPECTOR GENERAL
The success of the OIG mission to prevent fraud, waste, and abuse depends on the
cooperation of FEC employees (and the public). There are several ways to report
questionable activity.




      Call us at 202-694-1015 (a confidential or anonymous message can be
      left 24 hours a day/7 days a week) or toll-free at 1-800-424-9530 (press 0;
      then dial 1015 - Monday - Friday 8:30am – 5:00pm).




      Write or visit us - we are located at: 	 Federal Election Commission
                                             Office of Inspector General
                                             999 E Street, N.W., Suite 940
                                             Washington, D.C. 20463

      Mail is opened by OIG staff members only.




You can also fax (202-501-8134) or contact us by e-mail at: oig@fec.gov.
Website address: http://www.fec.gov/fecig/fecig.shtml

Individuals may be subject to disciplinary or criminal action for knowingly making
a false complaint or providing false information.
